<html>
<title> - ADDRESSING WORKFORCE NEEDS AT THE REGIONAL LEVEL: INNOVATIVE PUBLIC AND PRIVATE PARTNERSHIPS</title>
<body><pre>[Senate Hearing 112-896]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 112-896
 
                   ADDRESSING WORKFORCE NEEDS AT THE 
                 REGIONAL LEVEL: INNOVATIVE PUBLIC AND 
                          PRIVATE PARTNERSHIPS 

=======================================================================

                                HEARING

                               BEFORE THE

            SUBCOMMITTEE ON EMPLOYMENT AND WORKPLACE SAFETY

                                 OF THE

                    COMMITTEE ON HEALTH, EDUCATION,
                          LABOR, AND PENSIONS

                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                                   ON

EXAMINING ADDRESSING WORKFORCE NEEDS AT THE REGIONAL LEVEL, FOCUSING ON 
               INNOVATIVE PUBLIC AND PRIVATE PARTNERSHIPS

                               __________

                           FEBRUARY 16, 2012

                               __________

 Printed for the use of the Committee on Health, Education, Labor, and 
                                Pensions
      Available via the World Wide Web: http://www.gpo.gov/fdsys/

                               ----------

                         U.S. GOVERNMENT PRINTING OFFICE 

89-543 PDF                       WASHINGTON : 2014 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2250 Mail: Stop SSOP, 
                          Washington, DC 20402-0001



          COMMITTEE ON HEALTH, EDUCATION, LABOR, AND PENSIONS

                       TOM HARKIN, Iowa, Chairman

BARBARA A. MIKULSKI, Maryland              MICHAEL B. ENZI, Wyoming
JEFF BINGAMAN, New Mexico                  LAMAR ALEXANDER, Tennessee
PATTY MURRAY, Washington                   RICHARD BURR, North Carolina
BERNARD SANDERS (I), Vermont               JOHNNY ISAKSON, Georgia
ROBERT P. CASEY, JR., Pennsylvania         RAND PAUL, Kentucky
KAY R. HAGAN, North Carolina               ORRIN G. HATCH, Utah
JEFF MERKLEY, Oregon                       JOHN McCAIN, Arizona
AL FRANKEN, Minnesota                      PAT ROBERTS, Kansas
MICHAEL F. BENNET, Colorado                LISA MURKOWSKI, Alaska
SHELDON WHITEHOUSE, Rhode Island           MARK KIRK, IIllinois
RICHARD BLUMENTHAL, Connecticut
                                       

                    Daniel E. Smith, Staff Director

                  Pamela Smith, Deputy Staff Director

     Frank Macchiarola, Republican Staff Director and Chief Counsel

                                 ______

            Subcommittee on Employment and Workplace Safety

                   PATTY MURRAY, Washington, Chairman

JEFF BINGAMAN, New Mexico            JOHNNY ISAKSON, Georgia
AL FRANKEN, Minnesota                LAMAR ALEXANDER, Tennessee
MICHAEL F. BENNET, Colorado          ORRIN G. HATCH, Utah
SHELDON WHITEHOUSE, Rhode Island     MARK KIRK, Illinois
RICHARD BLUMENTHAL, Connecticut      MICHAEL B. ENZI, Wyoming (ex 
TOM HARKIN, Iowa (ex officio)        officio)

                      Scott Cheney, Staff Director

                 Tommy Nguyen, Minority Staff Director

                                  (ii)



                            C O N T E N T S

                               __________

                               STATEMENTS

                      THURSDAY, FEBRUARY 16, 2012

                                                                   Page

                           Committee Members

Murray, Hon. Patty, Chairman, Subcommittee on Employment and 
  Workplace Safety, opening statement............................     1
Isakson, Hon. Johnny, a U.S. Senator from the State of Georgia...     2
Enzi, Hon. Michael B., a U.S. Senator from the State of Wyoming..     2
Franken, Hon. Al, a U.S. Senator from the State of Minnesota.....    15
Whitehouse, Hon. Sheldon, a U.S. Senator from the State of Rhode 
  Island.........................................................    45

                            Witness--Panel I

Sherrill, Andrew, Director, U.S. Government Accountability 
  Office, Washington, DC.........................................     3
    Prepared statement...........................................     5

                          Witnesses--Panel II

Hunn, David, Executive Director, Northern Virginia Workforce 
  Investment Board, Vienna, VA; Accompanied by Geraldine Hofler, 
  Project Director, Northern Virginia Community College, 
  Springfield, VA................................................    18
    Prepared statement...........................................    19
Schramm, Patricia, Executive Director, Workforce Development 
  Board of South Central Wisconsin, Inc., Madison, WI; 
  Accompanied by Bettsey Barhorst, Ph.D., President, Madison 
  College, Madison, WI...........................................    22
    Prepared statement...........................................    24
Harmsen, Sandy, Director, San Bernardino County Workforce 
  Investment Board, San Bernardino, CA; Accompanied by James 
  Watson, President and CEO, CMTC, Torrance, CA..................    28
    Prepared statement...........................................    30
Sessions, Marlena, CEO, Workforce Development Council of Seattle-
  King County, Seattle, WA; Accompanied by Barbara Trehearne, 
  Ph.D., RN, Group Health Cooperative, Seattle, WA...............    33
    Prepared statement...........................................    35

                                 (iii)

  


ADDRESSING WORKFORCE NEEDS AT THE REGIONAL LEVEL: INNOVATIVE PUBLIC AND 
                          PRIVATE PARTNERSHIPS

                              ----------                              


                      THURSDAY, FEBRUARY 16, 2012

                                       U.S. Senate,
           Subcommittee on Employment and Workplace Safety,
       Committee on Health, Education, Labor, and Pensions,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:07 a.m., in 
Room SD-430, Dirksen Senate Office Building, Hon. Patty Murray, 
chairman of the subcommittee, presiding.
    Present: Senators Murray, Franken, Whitehouse, and Isakson.

                  Opening Statement of Senator Murray

    Senator Murray. Good morning. This subcommittee will come 
to order.
    Many people say that there is no asset more important to 
our country and our employers than our workers, and I really 
happen to believe that that is true. A skilled and educated 
workforce has been the force behind the greatest economy and 
the most robust middle class this world has ever known. More 
families have been able to propel themselves upward in America 
than anywhere else, and much of that can be traced back to the 
education and training our workers have been empowered with.
    But as we all know, workers, employers, and our economy are 
facing significant challenges today. Our workers are still the 
best in the world, but it is harder and harder for our 
education and skills training systems to keep pace with their 
needs in our rapidly changing economy.
    Our economy is highly complex and constantly in flux. 
Industries we once counted on are gone. Others we can't even 
imagine are right around the corner. Global competitors are 
everywhere and multiplying. We have a larger, more diverse, and 
increasingly ill-prepared workforce.
    One thing we know for sure is no one program, provider, 
system, or approach will yield the scope and scale of the 
success we need. Partnerships of all types are essential, 
partnerships between workforce and economic development; 
employers and educators; community-based organizations and the 
government; childcare providers, transportation systems, and 
housing providers. Partnerships are key.
    Yesterday, along with my good friends and colleagues, 
Senators Isakson, Harkin, and Enzi, I was pleased to release a 
new report by the Government Accountability Office that takes 
an in-depth look at innovative collaborations between workforce 
boards and employers that meet local needs. Those partnerships 
have much to teach us. But we've already learned a lot and have 
taken great strides to incorporate those lessons into draft 
legislation to improve the system.
    Today, we're going to hear about ways to make timely, 
efficient, and effective workforce development opportunities 
available that combine the ability to earn and learn at the 
same time, that integrate classroom and work-based learning, 
that move people along career pathways, that effectively 
prevent layoffs, and that respond to and help shape regional 
economic development and growth strategies.
    We have heard countless stories, many unsubstantiated and 
frequently repeated without any fact-checking, about how the 
current system isn't working well. No system is perfect. But I 
care deeply about the effectiveness of our workforce 
development programs and systems. And because of that, I will 
keep pushing them to improve and serve workers, businesses, and 
communities even better. If something isn't working well, we 
need to fix it.
    But this report highlights that there are also countless 
examples of programs and partnerships and systems that do work 
well, where they effectively support workers, businesses, and 
communities, and we'll hear some of those stories today. I'm 
looking forward to hearing from all of our witnesses about this 
important issue.
    But before I introduce our first witness, I would like to 
turn to Senator Isakson, who has been my partner in this.
    And thank you for being here today.

                      Statement of Senator Isakson

    Senator Isakson. Thank you, Madam Chairman. I'd like to ask 
unanimous consent that the opening statement of Ranking Member 
Enzi be submitted for the record.
    Senator Murray. Without objection.
    [The prepared statement of Senator Enzi follows:]

                   Prepared Statement of Senator Enzi

    Thank you Chairwoman Murray and Ranking Member Isakson for 
holding today's subcommittee hearing, and for your commitment 
to improving and modernizing the workforce development system 
in this country.
    I appreciate the work that the Government Accountability 
Office (GAO) did in identifying successful models between 
employers and workforce development boards across the country. 
I look forward to their testimony today.
    The GAO report being released today comes at a very 
important time. Even with an unemployment rate of 8.3 percent, 
52 percent of U.S. employers are having difficulty in filling 
positions within their organizations.
    Unfortunately, the concept of a ``skills gap'' is not new. 
Since 2006, surveys consistently find that 30 to 40 percent of 
employers cannot find workers with the knowledge and skills 
needed to fill available jobs. This makes engaging employers 
and keeping them committed to working with the workforce system 
even more critical.
    Employers need help in addressing these workforce 
challenges. We must encourage policies that meet employers' 
immediate and long-term needs in recruiting, hiring and 
retaining a skilled workforce.
    We are already doing this in Wyoming. For example, the 
tourism industry is Wyoming's second largest industry, 
generating over 30,000 jobs. The Wyoming Workforce Development 
Council is addressing the workforce needs of industries like 
tourism and health care by bringing together industry, 
education and training providers, and government.
    In response to high turnover in the industry, the Council 
developed the Wyoming Lodging and Restaurant Association 
Hospitality Partnership. This partnership brings employers, 
training providers, and workforce and economic development 
services together to provide for a highly trained workforce. 
Currently, the partnership is identifying more education and 
training opportunities for individuals to complete industry 
recognized credentials which will open doors for career 
advancement and industry growth.
    Today we will learn about successful partnerships that are 
meeting the supply- and demand-side needs of regional 
economies. I look forward to hearing about what is working, as 
well as what challenges still must be addressed.
    The information we will hear about today will inform what 
we do as we move ahead with the reauthorization of the 
Workforce Investment Act (WIA). Another GAO report identified 
47 employment and training programs administered by nine 
agencies that are funded by the Federal Government. We need to 
think about how to better utilize our scarce resources by 
streamlining and consolidating duplicative and redundant 
programs to more effectively and efficiently meet the workforce 
development needs of our workers and our businesses.
    I look forward to your testimony.

    Senator Isakson. I'll be very brief. I thank Mr. Sherrill 
for being here today and GAO for following up on the request 
made by Chairman Murray, myself, Chairman Harkin, and Ranking 
Member Enzi.
    Public-private partnerships and success stories are things 
we like to hear. We hear about too many tragedies up here in 
the Congress all the time. And I'm anxious to hear from our 
participants who have been asked to participate in Panel II.
    Welcome, Mr. Sherrill. We're glad to have you.

    STATEMENT OF ANDREW SHERRILL, DIRECTOR, U.S. GOVERNMENT 
             ACCOUNTABILITY OFFICE, WASHINGTON, DC

    Mr. Sherrill. Chairwoman Murray, Ranking Member Isakson, 
and members of the subcommittee, I'm pleased to be here today 
to discuss the findings from our report that was released 
yesterday. We examined promising practices for collaboration 
between local workforce investment boards, employers, education 
providers, and others that have demonstrated positive results.
    Specifically, we examined the factors that facilitated 
these innovative collaborations, the major challenges to 
collaboration, and what actions the Department of Labor has 
taken to support local workforce boards in their collaborative 
efforts. We asked officials from five Federal agencies and 
national workforce and economic development experts from 20 
organizations to nominate what they viewed as the most 
promising, innovative initiatives in which local workforce 
boards collaborated effectively with employers and other 
partners to achieve positive results.
    From over 89 nominations covering 28 States, we selected 14 
initiatives for in-depth review. While the 14 initiatives 
varied in terms of their purpose, sector, and partners, the 
boards and their partners cited six common factors that 
facilitated and sustained collaboration. These were: a focus on 
urgent, common needs; leadership; the use of leveraged 
resources; employer responsive services; minimizing 
administrative burden; and results that motivated the partners 
to continue their collaboration.
    Almost all of the collaborations grew out of efforts to 
address urgent workforce needs of multiple employers in a 
specific sector, such as health care, manufacturing, or 
agriculture, rather than focusing on individual employers. The 
urgent needs ranged from a shortage of critical skills in a 
sector to the threat of layoffs and business closures.
    The partners in these initiatives made extra efforts to 
provide employer responsive services, and this took various 
forms. These included employing board staff with industry-
specific knowledge, tailoring services such as jobseeker 
assessment and screening to address employers' specific needs, 
adjusting training course content in response to shifting 
industry needs, and providing instruction that led to industry 
recognized credentials.
    For example, in San Bernardino, a training partner 
integrated an industry recognized credential in metalworking 
into its training program to make it more relevant for 
employers. To help meet employers' long-term training needs, 
some initiatives like those in Seattle and Madison incorporated 
career pathways in which training is sequenced in length to 
provide additional training to support career advancement.
    In all the initiatives, partners remained engaged in these 
collaborative efforts because they continued to produce a wide 
range of reported results, such as increased supply of skilled 
labor, job placements, reduced employer recruitment and 
turnover costs, and averted layoffs. For example, in Wichita, 
of the nearly 1,200 workers who were trained in the use of 
composite materials in aircraft manufacturing, over 80 percent 
found jobs in the field. In Cincinnati, according to an 
independent study, employers who participated in the health 
care initiative realized almost $5,000 in cost savings per 
worker hired.
    For the workforce system, the partnerships led to various 
results, such as increased participation by employers in the 
workforce system, greater efficiencies, and models of 
collaboration that were replicated in other industries. While 
these boards were successful in their efforts, they cited some 
challenges to collaboration that they needed to overcome.
    Some boards were challenged to develop comprehensive 
strategies to address diverse employer needs with WIA funds. 
For example, some board staff said that while their initiative 
sought to meet employer needs for high-skilled workers through 
skill upgrades among their existing workers, WIA funds can be 
used to train current workers only in limited circumstances, 
and the boards use other funding sources to do so.
    In addition, staff from most boards said that WIA 
performance measures do not directly reflect their efforts to 
engage employers. Many of these boards use their own measures 
to assess their services to employers, such as the number of 
new employers served each year or the hiring rate for 
jobseekers they refer to employers.
    The Department of Labor has taken a wide range of actions 
to support local collaborations like these. These include 
conducting webinars and issuing guidance on relevant topics and 
collaborating with other Federal agencies to fund a new grant 
program to encourage the development of industry clusters.
    However, Labor has not made information it has collected on 
effective practices for leveraging resources readily 
accessible, even though many of the boards that we reviewed 
cited leveraging resources as a key to facilitating 
collaboration. So we recommended that Labor compile information 
on workforce boards that effectively leverage WIA funds with 
other funding sources and disseminate this information in a 
readily accessible manner. Labor agreed with our recommendation 
and noted its plans to implement it.
    That concludes my prepared statement, and I'd be happy to 
answer any questions you might have.
    [The prepared statement of Mr. Sherrill follows:]
                 Prepared Statement of Andrew Sherrill
    Chairwoman Murray, Ranking Member Isakson, and members of the 
subcommittee, I am pleased to be here today to discuss collaboration 
between workforce boards, employers, and others. As the United States 
continues to face high unemployment in the wake of the recent 
recession, federally funded workforce programs can play an important 
role in bridging gaps between the skills present in the workforce and 
the skills needed for available jobs. However, there is growing 
recognition that these programs need to better collaborate with 
employers to align services and training with employers' needs. As you 
know, the Workforce Investment Act of 1998 (WIA) \1\ envisioned such 
collaboration by focusing on employers as well as jobseekers, 
establishing a ``dual customer'' approach. To create a single, 
comprehensive workforce investment system, WIA required that 16 
programs administered by four Federal agencies--the Departments of 
Labor (Labor), Education, Health and Human Services, and Housing and 
Urban Development--provide access to their services through local one-
stop centers, where jobseekers, workers, and employers can find 
assistance at a single location.\2\ In addition, WIA sought to align 
federally funded workforce programs more closely with local labor 
market needs by establishing local workforce investment boards to 
develop policy and oversee service delivery for local areas within a 
State and required that local business representatives constitute the 
majority membership on these boards.\3\ Today, about 600 local 
workforce boards oversee the service delivery efforts of about 1,800 
one-stop centers that provide access to all required programs.\4\
---------------------------------------------------------------------------
    \1\ Pub. L. No. 105-220, 112 Stat. 936 (codified at 29 U.S.C. 
Sec. 2801 ET seq.).
    \2\ 29 U.S.C. Sec. 2841(b). Although WIA required 17 programs to 
participate in the one-stop system, the Welfare-to-Work program no 
longer exists, reducing the total to 16 mandatory programs.
    \3\ 29 U.S.C. Sec. 2832(a) and (b)(4).
    \4\ In addition to the one-stop centers that provide access to all 
programs, over 1,000 other one-stop centers, known as affiliate 
centers, provide limited employment and training-related services to 
jobseekers and employers.
---------------------------------------------------------------------------
    Despite the vision of collaboration between local employers and the 
workforce investment system, we and others have found that 
collaboration can be challenging. For example, in previous reports, we 
found that some employers have limited interaction with or knowledge of 
this system and that employers who do use the one-stop centers mainly 
do so to fill their needs for low-skilled workers.\5\ My remarks today 
are based on our report, which was released yesterday, entitled 
Workforce Investment Act: Innovative Collaborations between Workforce 
Boards and Employers Helped Meet Local Needs.\6\ We examined promising 
practices for collaboration between workforce investment boards, 
employers, education providers, and others that have demonstrated 
positive results. Specifically, we examined (1) the factors that 
facilitated innovative collaborations among workforce boards, 
employers, and others; (2) the major challenges to collaboration; and 
(3) what actions the Department of Labor has taken to support local 
workforce boards in their collaborative efforts.
---------------------------------------------------------------------------
    \5\ See GAO, Workforce Investment Act: Employers Are Aware of, 
Using, and Satisfied with One-Stop Services, but More Data Could Help 
Labor Better Address Employers' Needs, GAO-05-529R (Washington, DC: 
Feb. 18, 2005). This report found that about half of the employers were 
not aware of their local one-stops, and that this was more common among 
smaller companies. Also, see GAO, Workforce Investment Act: Employers 
Found One-Stop Centers Useful in Hiring Low-Skilled Workers; 
Performance Information Could Help Gauge Employer Involvement, GAO-07-
167 (Washington, DC: Dec. 22, 2006).
    \6\ GAO, Workforce Investment Act: Innovative Collaborations 
between Workforce Boards and Employers Helped Meet Local Needs, GAO-12-
97 (Washington, DC: Jan. 19, 2012).
---------------------------------------------------------------------------
    To answer these questions, we asked officials from five Federal 
agencies \7\ and national workforce and economic development experts 
from 20 organizations to nominate what they viewed as the most 
promising or innovative initiatives in which local workforce boards 
collaborated effectively with employers and other partners to achieve 
positive results. From over 89 nominations, covering 28 States, we 
selected 14 initiatives in 13 local areas for in-depth review. The 
criteria for our selection included the number of nominations for each 
initiative, diversity of Federal funding sources, variety of local 
unemployment rates, evidence of replicability, and geographical 
diversity, among others. We interviewed State and local workforce 
officials, representatives of educational institutions, training 
providers, economic development officials, employers, and others. We 
also interviewed officials from the Departments of Labor and Commerce, 
as well as representatives of workforce associations. We also reviewed 
relevant Federal laws, regulations, and other documents pertaining to 
the key Federal programs. We conducted our work between November 2010 
and January 2012 in accordance with generally accepted government 
auditing standards. Those standards require that we plan and perform 
the audit to obtain sufficient, appropriate evidence to provide a 
reasonable basis for our findings and conclusions based on our audit 
objectives. We believe that the evidence obtained provides a reasonable 
basis for our findings and conclusions based on our audit objectives.
---------------------------------------------------------------------------
    \7\ In addition to the Departments of Labor, Education, Health and 
Human Services, and Housing and Urban Development, which administer 
one-stop programs, we also requested nominations from the Department of 
Commerce, which administers key economic development programs.
---------------------------------------------------------------------------
    In summary, workforce board officials and their partners in the 14 
initiatives cited a range of factors that facilitated building 
innovative collaborations. Almost all of the collaborations grew out of 
efforts to address urgent workforce needs of multiple employers in a 
specific sector, rather than focusing on individual employers. The 
partners in these initiatives made extra effort to engage employers so 
they could tailor services such as jobseeker assessment, screening, and 
training to address specific employer needs. In all the initiatives, 
partners remained engaged in these collaborations because they 
continued to produce a wide range of reported results, such as an 
increased supply of skilled labor, job placements, reduced employer 
recruitment and turnover costs, and averted layoffs. While these boards 
were successful in their efforts, they cited some challenges to 
collaboration that they needed to overcome. Some boards were challenged 
to develop comprehensive strategies to address diverse employer needs 
with WIA funds. For example, some boards' staff said that while their 
initiatives sought to meet employer needs for higher skilled workers 
through skill upgrades, WIA funds can be used to train current workers 
only in limited circumstances, and the boards used other funding 
sources to do so. Staff from most, but not all, boards also said that 
WIA performance measures do not reflect their efforts to engage 
employers, and many boards used their own measures to assess their 
services to employers. Labor has taken various steps to support local 
collaborations, such as conducting webinars and issuing guidance on 
pertinent topics, and contributing to a new Federal grant program to 
facilitate innovative regional collaborations. Yet, while many boards 
cited leveraging resources as a key to facilitating collaboration, 
Labor has not compiled pertinent information on effective practices for 
leveraging resources and made it easy to access.
   several key factors supported initial collaboration and sustained 
                              it over time
    While the 14 selected initiatives varied in terms of their purpose, 
sector, and partners involved, the boards and their partners cited 
common factors that facilitated and sustained collaboration. These were 
(1) a focus on urgent, common needs; (2) leadership; (3) the use of 
leveraged resources; (4) employer-responsive services; (5) minimizing 
administrative burden; and (6) results that motivated the partners to 
continue their collaboration.
    With regards to focusing on urgent, common needs, almost all of the 
collaborations grew out of efforts to address urgent workforce needs of 
multiple employers in a specific sector, such as health care, 
manufacturing, or agriculture, rather than focusing on individual 
employers (see table 1). The urgent needs ranged from a shortage of 
critical skills in health care and manufacturing to the threat of 
layoffs and business closures. In San Bernardino, CA, for example, some 
companies were at risk of layoffs and closures because of declining 
sales and other conditions, unless they received services that included 
retraining for their workers.\8\ In one case, employers in Gainesville, 
FL, joined with the board and others to tackle the need to create 
additional jobs by embarking on an initiative to develop 
entrepreneurial skills.
---------------------------------------------------------------------------
    \8\ According to Labor, averting layoffs is one of the functions of 
the workforce investment system, and worker training, such as training 
for workers in new processes or technologies, is one of several 
services that can help employers avoid layoffs. Labor has encouraged 
States to establish criteria to identify the employers and workers for 
whom layoff aversion services may be appropriate. States that seek to 
use WIA funds to avert layoffs must obtain waivers from Labor. See 
Department of Labor, Training and Employment Guidance Letter No. 30-09.

                    Table 1.--Fourteen Initiatives Addressed a Range of Urgent Employer Needs
----------------------------------------------------------------------------------------------------------------
           Initiative name               Workforce board \1\          Sector focus         Needs addressed \2\
----------------------------------------------------------------------------------------------------------------
1. ManufacturingWorks................  Chicago, IL............  Manufacturing..........  Critical skill needs.
2. Health Careers Collaborative of     Cincinnati, OH.........  Health care............  Critical skill needs,
 Greater Cincinnati.                                                                      turnover.
3. Entrepreneurship Quests...........  Gainesville, FL........  No single sector.......  Need for additional
                                                                                          jobs.\3\
4. Advanced Manufacturing Training     Golden, CO.............  Manufacturing..........  Soft skills.\4\
 Initiative.
5. Piedmont Triad Global Logistics     Greensboro, NC.........  Transportation,          Critical skill needs.
 Workforce Initiative.                                           distribution, and
                                                                 logistics.
6. Center of Excellence in Production  Lancaster, PA..........  Agriculture............  Critical skill needs.
 Agriculture.
7. Career Pathways...................  Madison, WI............  Multiple...............  Critical skill needs.
8. Pre-employment Healthcare Academy.  Rochester, MN..........  Health care (long-term   Turnover, soft
                                                                 care).                   skills.\4\
9. Technical Employment Training.....  San Bernardino, CA \5\.  Manufacturing..........  Critical skill needs.
10. Manufacturing Sector Layoff        San Bernardino, CA \5\.  Manufacturing..........  Imminent threat of
 Aversion and Business Assistance                                                         layoffs.
 Initiative.
11. Health Care Sector Panel.........  Seattle, WA............  Health care............  Critical skill needs.
12. Michigan Academy for Green         Taylor, MI (southeast    Manufacturing..........  Need for upgraded
 Mobility Alliance.                     Michigan).                                        skills to keep pace
                                                                                          with technological
                                                                                          change.
13. NoVaHealthForce..................  Vienna, VA (northern     Health care............  Critical skill needs.
                                        Virginia).
14. Composites Kansas WIRED            Wichita, KS............  Manufacturing            Need for upgraded
 Initiative.                                                     (aviation).              skills to keep pace
                                                                                          with technological
                                                                                          change.
----------------------------------------------------------------------------------------------------------------
Source: GAO.
\1\ The boards are identified by the city in which they are located. For the initiatives that involved multiple
  workforce boards, the city shown is the location of the lead workforce board. For the boards' complete names,
  see our report.
\2\ A single initiative could address more than one common need. The needs shown represent the main needs
  identified by the partners.
\3\ This initiative addressed the area's need for new employment opportunities through a strategy of promoting
  self-employment.
\4\ Soft skills are the nontechnical skills that workers need to function in a job, and include competencies
  related to problem-solving, oral communication, personal qualities, work ethic, and teamwork skills.
\5\ Two initiatives of this board, both in manufacturing, were selected.

    According to those we interviewed, by focusing on common employer 
needs across a sector, the boards and their partners produced 
innovative labor force solutions that, in several cases, had evaded 
employers who were trying to address their needs individually. In 
several cases, employers cited the recruitment costs they incurred by 
competing against each other for the same workers. By working together 
to develop the local labor pool they needed, the employers were able to 
reduce recruitment costs in some cases.
    Boards also facilitated collaboration by securing leaders who had 
the authority or the ability, or both, to persuade others of the merits 
of a particular initiative, as well as leaders whose perceived 
neutrality could help build trust. Officials from many initiatives 
emphasized the importance of having the right leadership to launch and 
sustain the initiative. For example, in northern Virginia, a community 
college president personally marshaled support from area hospital chief 
executive officers and local leaders to address common needs for health 
care workers.
    Another factor that facilitated collaboration was the use of 
leveraged resources. All of the boards and their partners we spoke with 
launched or sustained their initiatives by leveraging resources in 
addition to or in lieu of WIA funds. In some cases, partners were able 
to use initial support, such as discretionary grants, to attract 
additional resources. For example, in Golden, CO, the board leveraged a 
Labor discretionary grant of slightly more than $285,000 to generate an 
additional $441,000 from other partners. In addition to public funds, 
in all cases that we reviewed, employers demonstrated their support by 
contributing cash or in-kind contributions.
    In all cases, boards and their partners provided employer-
responsive services to actively involve employers and keep them engaged 
in the collaborative process. Some boards and their partners employed 
staff with industry-specific knowledge to better understand and 
communicate with employers. In other initiatives, boards and partners 
gained employers' confidence in the collaboration by tailoring services 
such as jobseeker assessment and screening services to address specific 
employers' needs. For example, a sector-based center in Chicago, IL, 
worked closely with employers to review and validate employers' own 
assessment tools, or develop new ones, and administer them on behalf of 
the employers, which saved employers time in the hiring process. Boards 
and their partners also strengthened collaborative ties with employers 
by making training services more relevant and useful to them. In some 
cases, employers provided direct input into training curricula. For 
example, in Wichita, KS, employers from the aviation industry worked 
closely with education partners to develop a training curriculum that 
met industry needs and integrated new research findings on composite 
materials. Another way that some initiatives met employers' training 
needs was to provide instruction that led to industry-recognized 
credentials. For example, in San Bernardino, a training provider 
integrated an industry-recognized credential in metalworking into its 
training program to make it more relevant for employers.
    Boards also made efforts to minimize administrative burden for 
employers and other partners. In some cases, boards and their partners 
streamlined data collection or developed shared data systems to enhance 
efficiency. For example, in Cincinnati, OH, the partners developed a 
shared data system to more efficiently track participants, services 
received, and outcomes achieved across multiple workforce providers in 
the region.
    Finally, partners remained engaged in these collaborative efforts 
because they continued to produce a range of results for employers, 
jobseekers and workers, and the workforce system and other partners, 
such as education and training providers. For employers, the 
partnerships produced diverse results that generally addressed their 
need for critical skills in various ways. In some cases, employers said 
the initiatives helped reduce their recruitment and retention costs. 
For example, in Cincinnati, according to an independent study, 
employers who participated in the health care initiative realized about 
$4,900 in cost savings per worker hired. For jobseekers and workers, 
the partnerships produced results that mainly reflected job placement 
and skill attainment. For example, in Wichita, of the 1,195 workers who 
were trained in the use of composite materials in aircraft 
manufacturing, 1,008 had found jobs in this field. For the workforce 
system, the partnerships led to various results, such as increased 
participation by employers in the workforce system, greater 
efficiencies, and models of collaboration that could be replicated. 
Specifically, officials with several initiatives said they had 
generated repeat employer business or that the number and quality of 
employers' job listings had increased, allowing the workforce system to 
better serve jobseekers.
 workforce boards overcame some challenges to address diverse employer 
  needs and developed their own measures to track employer engagement
    While these boards were successful in their efforts, they cited 
some challenges to collaboration that they needed to overcome. Some 
boards were challenged to develop comprehensive strategies to address 
diverse employer needs with WIA funds. WIA prioritizes funding for 
intensive services and training for low-income individuals when funding 
for adult employment and training activities is limited.\9\ The 
director of one board said that pursuing comprehensive strategies for 
an entire economic sector can be challenging, because WIA funds are 
typically used for lower skilled workers, and employers in the region 
wanted to attract a mix of lower and higher skilled workers. To address 
this challenge, the director noted that the board used a combination of 
WIA and other funds to address employers' needs for a range of workers. 
Additionally, some boards' staff said that while their initiatives 
sought to meet employer needs for skill upgrades among their existing 
workers, WIA funds can be used to train current workers only in limited 
circumstances, and the boards used other funding sources to do so. 
Among the initiatives that served such workers, the most common funding 
sources were employer contributions and State funds.
---------------------------------------------------------------------------
    \9\ 29 U.S.C. Sec. 2864(d)(4)(E).
---------------------------------------------------------------------------
    In addition, staff from most, but not all, boards also said that 
WIA performance measures do not directly reflect their efforts to 
engage employers. Many of these boards used their own measures to 
assess their services to employers, such as the number of new employers 
served each year, the hiring rate for jobseekers they refer to 
employers, the interview-to-hire ratio from initiative jobseeker 
referrals, the retention rate of initiative-referred hires, the number 
of businesses returning for services, and employer satisfaction.\10\
---------------------------------------------------------------------------
    \10\ These examples are consistent with prior GAO work. In a 2004 
report, we found that about 70 percent of local areas nationwide 
reported that they required one-stop centers to track some type of 
employer measure, such as the number of employers that use one-stop 
services, how many hire one-stop customers, and the type of services 
that employers use. See GAO, Workforce Investment Act: States and Local 
Areas Have Developed Strategies to Assess Performance, but Labor Could 
Do More to Help, GAO-04-657 (Washington, DC: June 1, 2004).
---------------------------------------------------------------------------
   labor has taken steps to support local collaborative efforts and 
  address some challenges but has not made information on leveraging 
                      resources readily available
    In order to support local collaborations like these, Labor has 
conducted webinars and issued guidance on pertinent topics, and has 
also collaborated with other Federal agencies in efforts that could 
help support local collaboration. For example, Labor is working with 
the Department of Education and other Federal agencies to identify 
existing industry-recognized credentials and relevant research 
projects,\11\ and has issued guidance to help boards increase 
credential attainment among workforce program participants.\12\ In 
addition, Labor has recently worked with Commerce and the Small 
Business Administration to fund a new discretionary $37 million grant 
program called the Jobs and Innovation Accelerator Challenge to 
encourage collaboration and leveraging funds. Specifically, this 
program encourages the development of industry clusters, which are 
networks of interconnected firms and supporting institutions that can 
help a region create jobs. A total of 16 Federal agencies will provide 
technical resources to help leverage existing agency funding, including 
the three funding agencies listed above.\13\
---------------------------------------------------------------------------
    \11\ According to the Department of Education, The National Center 
for Education Statistics has convened a Federal interagency working 
group to develop better survey measures of the prevalence of industry-
recognized certifications and licenses and educational certificates in 
the U.S. adult population.
    \12\ See Department of Labor, Training and Employment Guidance 
Letter No. 15-10 (Washington, DC: 2010).
    \13\ In September 2011, Labor announced the 20 regions that will 
receive grant funds. Labor estimates the grants will result in the 
creation of 4,800 jobs.
---------------------------------------------------------------------------
    While Labor has taken some steps to support local collaborations, 
it has not made information it has collected on effective practices for 
leveraging resources easily accessible, even though many of the boards 
we reviewed cited leveraging resources as a key to facilitating 
collaboration. For example, Labor maintains a Web site for sharing 
innovative State and local workforce practices called Workforce3One, 
which has some examples of leveraging funding at the local level.\14\ 
However, the Web site does not group these examples together in an easy 
to find location, as it does for other categories such as examples of 
innovative employer services or sector-based strategies.\15\ Moreover, 
although certain evaluations and other research reports have included 
information on leveraging resources,\16\ this information has not been 
compiled and disseminated in one location.
---------------------------------------------------------------------------
    \14\ See www.workforce3one.org.
    \15\ There are 14 ``super categories,'' on the site, such as 
apprenticeship, clusters, community colleges, entrepreneurship, 
disability, nonprofit, and youth services.
    \16\ For example, see The Urban Institute, Characteristics of the 
Community-Based Job Training Grant Program, prepared for the Department 
of Labor (Washington, DC: 2009). Also see Public Policy Associates 
Incorporated, Nurturing America's Growth in the Global Marketplace 
through Talent Development: An Interim Report on the Evaluation of 
Generations II and III of WIRED, prepared for the Department of Labor 
(Lansing, MI: 2009), and Social Policy Research Associates, Literature 
Review: Business/Faith-Based and Community Organization Partnerships, 
prepared for the Department of Labor (Washington, DC: 2006).
---------------------------------------------------------------------------
    In conclusion, at a time when the Nation continues to face high 
unemployment, it is particularly important to consider ways to better 
connect the workforce investment system with employers to meet local 
labor market needs. The 14 local initiatives that we reviewed 
illustrate how workforce boards collaborated with partners to help 
employers meet their needs and yielded results: critical skill needs 
were met, individuals obtained or upgraded their skills, and the local 
system of workforce programs was reinvigorated by increased employer 
participation. Labor has taken several important steps that support 
local initiatives like the ones we reviewed through guidance and 
technical assistance, and through collaborative efforts with other 
Federal agencies. However, while Labor has also collected relevant 
information on effective strategies that local boards and partners have 
used to leverage resources, it has not compiled this information or 
made it readily accessible. As the workforce system and its partners 
face increasingly constrained resources, it will be important for local 
boards to have at their disposal information on how boards have 
effectively leveraged funding sources. In our report, we recommended 
that Labor compile information on workforce boards that effectively 
leverage WIA funds with other funding sources and disseminate this 
information in a readily accessible manner. In its comments on our 
draft report, Labor agreed with our recommendation and noted its plans 
to implement it.
    That concludes my prepared statement. I would be happy to answer 
any questions that you or other members of the subcommittee may have.

    Senator Murray. Well, Mr. Sherrill, thank you very much for 
that.
    We're here, actually, to focus on the report you just 
talked about. But there has been a lot of discussion about 
another GAO report on Federal job training programs. Some have 
repeatedly said that the GAO's 2011 report found that programs 
were duplicative, wasteful, and ineffective. And that report 
has been cited very often as justification for proposals to cut 
funding or programs under the Workforce Investment Act.
    In that January 2011 report, what exactly did the GAO find?
    Mr. Sherrill. That was basically an inventory of Federal 
employment and training programs. We've done these kind of 
reports for the last two decades, the last time in 2003. For 
this report, we identified 47 Federal employment and training 
programs in 2009 using $18 billion in spending, administered by 
nine Federal agencies. This was an increase of three programs 
and about $5 billion since our 2003 report, mainly due to 
additional Recovery Act spending, a one-time infusion of funds.
    We found overall that not a lot is known about the 
effectiveness, the extent to which programs are effective. Few 
have had impact studies. We also found that almost all of the 
programs overlap with at least one other program and that they 
provide similar services to similar populations.
    Now, this is a very high-level perspective. What we did was 
have a list of 12 different kinds of employment and training 
services and asked each program to identify which ones it 
provides and what its target populations were. So there's a 
high-level overlap. But even in that case, there can be 
differences in eligibility, objectives, or how the services are 
provided.
    We did the high-level look, and then we drilled down to 
focus on three specific programs that provide services to low-
income populations, Temporary Assistance for Needy Families, 
the WIA Adult Program, and the Employment Services. We tried to 
get a sense of--for example--to what extent people were 
receiving the same services from these different programs.
    We weren't able to get good data on that, but what we did 
conclude is that these programs maintain separate 
administrative structures to provide some of the same or 
similar types of services. And we identified opportunities for 
greater administrative efficiencies along two avenues. One was 
greater co-location of partners. For example, the TANF program 
is located in one-stop centers in about 30 States, typically, 
but not in others. And greater co-location of programs can have 
benefits such as sharing of information, cross-training of 
staff, things like that.
    The other angle was that several States, Texas, Utah, and 
Florida, have consolidated their State administrative 
structures, basically taking their workforce and welfare 
programs at the State level and consolidated them so that that 
achieved cost savings, fewer buildings, fewer staff. But we 
weren't able to identify or quantify those.
    So the bottom line is we found there's opportunities for 
greater administrative efficiencies along these lines and 
recommended that the Department of Labor and HHS work together 
to disseminate information about these kinds of initiatives--
what are the strategies they've used, the challenges, what are 
the results--to better inform other attempts to explore these 
kinds of avenues.
    Senator Murray. OK. Well, one of those recommendations was 
to the Department of Labor and Health and Human Services on how 
they might collaborate and try to come up with the incentives 
to get States, which are responsible for delivering these 
programs, to provide them more efficiently. Could you talk a 
little bit about those recommendations?
    Mr. Sherrill. Yes. Labor and HHS are taking steps to 
implement our recommendations. Let me just give you a couple of 
examples of the kinds of things they're doing. They're doing 
something called Workforce Innovation Fund Grants, where the 
focus is on innovative approaches to improving employment 
outcomes and also the cost-effectiveness side.
    Senator Murray. This is a result of your recommendation.
    Mr. Sherrill. Not necessarily a result, but something that 
will address in part the kind of thing we recommended, because 
part of what we suggested is that they look at incentives, 
providing greater incentives for States and localities to do 
these kinds of initiatives. And one of the goals of this 
Workforce Innovation Fund is to incentivize greater 
efficiencies in how we deliver services and really evaluate 
these rigorously. So that's one step.
    They're also doing a joint evaluation to focus on better 
alignment of the WIA and the TANF programs, including looking 
at promising State and local practices, which is one of the 
areas that we highlighted. There's a laboratory of things 
happening. What can we learn from these areas? There was not a 
lot of good information to help others make informed decisions 
about whether they should be doing initiatives similar to 
these.
    Senator Murray. OK. Very good. I have questions about the 
new report, but let me turn to Senator Isakson first.
    Senator Isakson. Again, thank you for coming and thank you 
for the report. A couple of questions--one is I noticed at the 
beginning of the report you listed--I think it was nine key 
factors in success stories and leveraged resources. One of them 
noted moneys from foundations.
    Mr. Sherrill. Yes.
    Senator Isakson. How much of that do you see around the 
country, where foundations are making investment in workforce 
development projects?
    Mr. Sherrill. Well, I can tell you that one of the key 
things that was distinctive about these initiatives was that 
they leveraged Federal funds, different kinds of Federal funds, 
with other nonFederal. For example, for the foundation grants, 
5 of the 14 initiatives, that was one of the sources of funding 
that they used.
    In addition, eight of the initiatives used State grants, 
six of them used local funds, so there was quite a mix of 
different funds to make the Federal funds go farther and bring 
these projects up to a bigger scale. I think probably the 
panelists can tell you in more detail about working with 
foundations and what that might have involved, those kinds of 
issues, at the more basic level.
    Senator Isakson. Well, one of the reasons I asked the 
question in my experience is that a lot of times, there are 
resources that are out of sight and out of mind, and agencies 
don't tend to think outside the box about seeking additional 
capital from somewhere other than the government or a 
government program. And when you can leverage government money 
with private money to accomplish a goal like workforce 
improvement, it's a magic combination.
    There are a lot of foundations where their resources were 
developed from somebody who had a great success in business and 
in employing people who wanted to continue that legacy along. 
So I'm glad that you focused on the private foundation money 
that is out there, and, hopefully, some of the examples we'll 
hear today will talk about that.
    I also read the Kansas WIRED Initiative, the workforce 
alliance in south central Kansas story that you cited toward 
the end of the report, which I thought, Madam Chairman, 
demonstrated everything we've hoped for, where in this 
initiative, they applied for a WIRED grant and got it from the 
Department of Labor in 2007. Kansas has a tremendous aviation 
industry. In fact, there are probably more airplanes for 
private use built in Kansas than anywhere in the United States.
    But there was a mismatch of available workers for the jobs 
that were in the industry. So they went to the industry. They 
got them to help them with the curriculum and collaborate with 
them on what they really needed from a standpoint of training. 
And then they matched that up with jobseekers, including non-
English speaking jobseekers, and they developed a translation 
program and a vocabulary program to help them better be able to 
communicate. And it turned out--I've got the number here. Let 
me see.
    Anyway, out of almost 2,000 workers who came and went 
through the program, almost all of them finished the program. 
And with the exception of 14, all of them got jobs. That's the 
kind of success story that we're really looking at. I 
appreciate your focusing on these real cases like the Kansas 
case and like the ones that we'll hear today, and I look 
forward to their testimony.
    Thank you, Madam Chair.
    Senator Murray. Thank you. Following up on that, in your 
new report, we've heard a lot about challenges in keeping 
employers engaged, as Senator Isakson just talked about in that 
example, and making sure that we're responsive to their needs 
in the local community. In your observations, what were the 
critical factors in these local partnerships that enabled them 
to be demand-driven and outcome-focused?
    Mr. Sherrill. I think one of the keys is that this involves 
a shift from sort of a program centric focus to an employer 
demand-driven focus, which can take you in a very different 
direction to target it. Employer responsive services was one of 
the items we highlighted as facilitating. And that manifested 
itself in a lot of different ways.
    But it was things like really understanding having staff at 
the one-stop center who know the specifics of the industries, 
what they need, the trends in the industries. It involves 
really developing assessments and screening tools for the 
workers that are going to really meet the employers' needs. It 
involves thinking about credentials that are important to the 
workers.
    One of the key things that we saw is that some of these 
initiatives had a broader focus, because some of the employers 
really wanted sort of skill increases, higher skilled workers, 
and they wanted to use some of their existing workers to 
upgrade their skills to make room for new entry level 
employees. So developing a comprehensive package of how to 
address that takes you out of a program mode and into a very 
different kind of a perspective.
    It's all fine to say we need more collaboration. But these 
initiatives really showed that can be very challenging, and 
this is very instructive. How did they implement collaboration 
on these large scales to do these? It was through strategies 
like these.
    Senator Murray. Yes. OK. I'm glad you used the words, 
``upgrade their skills.'' I've heard from a lot of people who 
have lost their jobs. They don't want to be told they're going 
to be retrained. They want to build on the skills they already 
have, and I think we should use the words, ``upgrade their 
skills,'' more rather than saying you're an outcast now. We're 
going to have you be a new person. I think that is reflected 
better in their willingness to really go out and upgrade their 
skills.
    You mentioned in your opening remarks about the importance 
of sector strategies being an essential component. How did the 
programs identify which sectors or industries to focus their 
efforts on that were successful?
    Mr. Sherrill. I think they had different mechanisms to do 
that. For example, I know some of the States that had 
existing--what they called skills panels or--like Seattle, I 
know, had that kind of an arrangement, where they had some 
mechanism for periodically checking in with employers about 
their situation.
    I know in northern Virginia in the health care industry, 
they did a study that really helped galvanize, and the study 
predicted or projected a coming shortage of about 17,000 
workers in various health care professions in about 23 
occupations. Well, that kind of work can really galvanize the 
employers.
    Senator Murray. So were they using some kind of labor 
market information or intelligence to make those decisions, or 
was it more talking directly to the employers?
    Mr. Sherrill. I think it varied. In some cases, it was 
talking to employers. I know one of the initiatives used a 
focus group to bring in employers to do that.
    Senator Murray. So it's both.
    Mr. Sherrill. It's both. Right.
    Senator Murray. OK. Some of the initiatives that you 
reviewed seemed to change how the local workforce system 
operated at a fundamental level as opposed to being a separate 
program within the system. What characteristics set those 
initiatives apart?
    Mr. Sherrill. Yes. I think, once again, it was bringing a 
collaborative effort. How do they leverage and bring together 
different players? One of the key things we found was that 
employer contributions, either cash or in-kind, were used by 
all of the initiatives, all 14 of the initiatives.
    So part of the challenge was really how do you bring 
employers to the table who are often competitors, and having 
good leadership to do that, because one of the things that they 
told us--some of the employers--is ``We used to recruit workers 
away from other employers and overseas and things. But that was 
just increasing the overall business costs.'' Now, under the 
different focus of these initiatives, they're looking to grow 
the pool of workers from their local areas and, in some cases, 
develop a pipeline of youth.
    Senator Murray. To the benefit of an industry rather than--
--
    Mr. Sherrill. Right. So it's a different focus. A lot of 
the challenge was how do you bring employers to the table, and 
to have a staying commitment, get them to help contribute 
resources as well, and that was a key part of this.
    Senator Murray. What about the administrative burden we 
hear from a lot of businesses, that it's just----
    Mr. Sherrill. There were several strategies we found some 
of the initiatives using to minimize administrative burden. One 
of the key things some of them did was to have a central point 
of contact at the one-stop for employers, someone who really 
could be the face of the one-stop for the employers.
    Senator Murray. Specifically for the employers.
    Mr. Sherrill. For the employers. In other cases, they 
helped the employers to try to minimize some of the paperwork 
burden in terms of information that had to be reported or 
documented by employers, to provide assistance with doing that. 
So those types----
    Senator Murray. So it seems to me the whole focus is rather 
than just ``We want to get you a job. You're out of work,'' 
it's to the employers ``We want to help you build the 
workforce,'' so that it's a----
    Mr. Sherrill. Right. It's really the window----
    Senator Murray. Yes.
    Mr. Sherrill [continuing]. Through which they're serving 
their customers, the jobseekers.
    Senator Murray. OK. Well, I appreciate very much you 
putting this report together, and I know I look forward to 
hearing the panel behind you and how they have implemented 
their workforce.
    Senator Isakson, any other questions?
    Senator Isakson. I just have a comment. And I may be wrong, 
but from my days back in my State legislature and the company 
that I ran back in Georgia, I think there's a general belief--
or lack of understanding of what is available from the 
Department of Labor and the workforce boards by the private 
sector. And if the private sector doesn't--if the boards don't 
reach out to the private sector and make it comfortable and 
``easy'' for them to come to the department and find workers, 
they're not going to do it, because the perception is, like you 
said, it's either too cumbersome, there's too much paperwork, 
or it's not the type of worker they really need to hire.
    But if you get them collaborating with each other, and you 
have a one-stop shop for the potential worker as well as a one-
stop contact for the company, it makes it a lot easier to do 
business. But I think that it's a--it's not a chicken or egg 
deal. What comes first is the workforce board reaching out to 
the employers of the community, and that's what brings about 
the collaboration. Is that a correct statement?
    Mr. Sherrill. Yes, and I think that's manifested. One of 
the things we saw is that in addition to employer contributions 
to help fund these initiatives, a bunch of these initiatives 
were replicated in other industries. For example, the Kansas 
WIRED Initiative you cited that focused on composite 
manufacturing in the aircraft industry was subsequently--
they're leveraging that to do composite materials in medical 
devices, orthopedic devices.
    And so the fact that employers are finding their needs met, 
staying with these initiatives over time, and the initiatives 
are growing to other sectors or industries is a sign that 
employers are getting integrated and using the one-stop 
vehicle.
    Senator Isakson. Thank you for a great report.
    Mr. Sherrill. Thank you.
    Senator Murray. I very much appreciate that. Senator 
Franken has joined us.
    Did you have a question for this panel, or do you want to 
wait until the next panel?

                      Statement of Senator Franken

    Senator Franken. I have a general question about the kind 
of leadership in these workforce boards and coordination, 
because I read the testimony of the second panel and of yours. 
It seems to me that in addition to having the right resources, 
the key to all the successes that we're going to hear about 
today is creative leadership.
    And in each of these cases, someone identified the skills 
gap and brought all the stakeholders together--businesses, 
workforce boards, community colleges--to start talking. And in 
the past year, I've started a kind of convening role in my 
State of bringing together stakeholders to encourage energy 
retrofitting.
    Then that sort of got me into skills gap stuff and 
convening a meeting of a community college that is doing 
exactly the right thing, which is working with businesses, with 
manufacturers, to create the skills--to create the curriculum 
for the skills, and they're working with a workforce board. And 
that seemed to be a matter of great leadership among those 
folks. Hennepin Technical College has started a program called 
M-Powered, and of about 93 percent of the people they've done 
in this program, 200-plus people--93 percent of them have 
permanent jobs now.
    My question is twofold. One, what role does just leadership 
play? And what role can we, as Senators, play in terms of going 
back to our States and convening people and saying, ``This 
model seems to work. Why don't you guys work with you guys?'' 
I'm very eloquent, as you can tell.
    But what role does leadership play? And what role does 
legislation and money and funding play? What is the mix of 
this? From your look at all of this, what do you believe is 
the--just on a 30,000-foot view of this, what is the mix that 
creates success?
    Mr. Sherrill. I think that was kind of bottom lined in the 
six factors that--we have a graphic in the report. Leadership 
was one of them. Leveraging funding was another key factor. 
Sort of employer responsive services, addressing urgent common 
needs--these were among the repeated themes we heard in these 
initiatives.
    With regard to leadership, that was important, and we found 
that it was sometimes--it came from different places, sometimes 
from the one-stop board, maybe a community college president, 
or someone from--a hospital executive. But one of the keys was 
you're bringing--since you have an industry focus, a sector 
focus, you're bringing employers to the table that are 
competitors with each other.
    So there's an issue of how do you get them to the table 
where they can trust and start working together to help deal 
with their common problems, because, obviously, if they're 
recruiting from one another, there's a concern about if they 
spend some money training people and they lose staff. I think 
the idea is that by focusing on their common needs and having 
good leadership and vision and connection to what their needs 
are in different ways, you can really make a difference.
    Senator Franken. The whole sectors gains, obviously.
    Mr. Sherrill. Yes.
    Senator Franken. So what comes first? I mean, there seems 
to be chicken and egg here a little bit. What comes first? Does 
the leadership come first?
    Mr. Sherrill. I think all these factors are important here. 
And you can--perhaps the second panel, those who are on the 
ground and implementing these initiatives, might give you a 
richer perspective of how things actually evolved.
    Senator Franken. Right.
    Mr. Sherrill. But I think you need some leadership to get 
things started. What's the focus? Which partners do we start 
adding to the table to really do this well, to explore other 
sources of funding----
    Senator Franken. Because funding is important, but it's 
important when it's used absolutely strategically. I don't want 
to waste funding, but I want to use it when it's needed and 
when it can be leveraged to the maximum effect. And that's what 
I want to learn a little bit about today.
    And I thank the Chair and Ranking Member for holding this 
hearing.
    Thank you, Mr. Sherrill.
    Mr. Sherrill. Thank you.
    Senator Murray. Thank you very much, Senator Franken.
    Mr. Sherrill, thank you for your testimony. We do have a 
number of committee members who would like to submit questions 
for the record, which we will allow them to do.
    I really appreciate your work on this report. So thank you 
very much.
    Mr. Sherrill. Thank you, Senator Murray.
    Senator Murray. With that, I'm going to introduce our 
second panel. And while they are coming forward and taking 
their seats, I will go ahead and begin introductions.
    This panel is a little different than a lot of our usual 
panels. We have the privilege of having witnesses from four of 
the best practices highlighted in the GAO report we just heard 
about. For each, we've invited the director of the workforce 
board and one of their key partners. In these cases we have an 
employer, two community college representatives, and a 
manufacturing extension partnership director.
    The witnesses from each practice will have an opportunity 
to provide us with a joint opening statement of 5 minutes. 
Following, we will do a round or two of questions.
    First of all, from northern Virginia, Mr. David Hunn is the 
executive director of the Northern Virginia Workforce 
Investment Board in Vienna, VA. He's joined by Ms. Geraldine 
Hofler, who is the project director for NoVaHealthFORCE at the 
Northern Virginia Community College in Springfield, VA.
    Next we will have from San Bernardino, CA--Ms. Sandy 
Harmsen is the director of the San Bernardino County Workforce 
Investment Board, and Mr. James Watson is president and CEO of 
CMTC, the California Manufacturing Technology Center in 
Torrance, CA.
    Next we're going to have from Madison, WI, Ms. Patricia 
Schramm, the executive director of the Workforce Development 
Board of south central Wisconsin, Inc., joined by Dr. Bettsey 
Barhorst, president of Madison College.
    Finally, we have two witnesses from Seattle, WA. Marlena 
Sessions is the CEO of the Seattle-King County Workforce 
Development Board, and Dr. Barbara Trehearne is the vice 
president of Clinical Excellence Quality and Nursing Practice 
of Group Health Cooperative in Seattle.
    Welcome to all of you. We really appreciate your 
participation today. And I would invite you to present us with 
up to 5 minutes of testimony from each group, and we will then 
have some questions.
    So we will begin with northern Virginia--Dr. David Hunn and 
Ms. Hofler.

STATEMENT OF DAVID HUNN, EXECUTIVE DIRECTOR, NORTHERN VIRGINIA 
    WORKFORCE INVESTMENT BOARD, VIENNA, VA; ACCOMPANIED BY 
GERALDINE HOFLER, PROJECT DIRECTOR, NORTHERN VIRGINIA COMMUNITY 
                    COLLEGE, SPRINGFIELD, VA

    Mr. Hunn. Chairwoman Murray, Ranking Member Isakson, 
Senator Franken, thank you for the opportunity to speak today. 
I am David Hunn, executive director of the Northern Virginia 
Workforce Investment Board.
    Our workforce area is located roughly 10 miles west of this 
hearing room across the Potomac River in the heart of a dynamic 
business environment. The workforce area serves over 1.9 
million residents and thousands of businesses and is 1 of 15 
local workforce areas in the Commonwealth of Virginia overseen 
by the Virginia Community College System as the State fiscal 
agent for the Workforce Investment Act.
    Our five one-stop centers, known as SkillSource Centers, 
had a record number of adult jobseekers this past fiscal year, 
having over 100,000 visits for the year ending in June. The 
region has become a major metropolitan job center with 1.5 
million jobs widely distributed among multiple employment 
sectors, such as information technology, professional services, 
health care, hospitality, retail, and government.
    Unemployment in our area is relatively low at 4.5 percent, 
less than the State of Virginia rate of 6.2 percent and a 
national rate of 8.5 percent. But new job growth in northern 
Virginia is projected to lead all local jurisdictions in 
greater Washington through 2020, and already employers are 
reporting difficulties in finding skilled workers.
    A key role for the local workforce area, through its 
business leadership and local elected officials, is the 
facilitation of targeted partnerships that you're looking at 
today. The Workforce Investment Act engages State officials, 
business and elected leaders to align these partnerships 
efficiently and in a manner most effective at the local level.
    The projections for a regional health care workforce 
shortage emerged in the past decade, and our workforce area 
targeted the health care workforce as its primary focus. The 
premise of NoVaHealthFORCE is that no one sector, either 
private health care providers; Federal, State, or local 
governments; higher educational institutions; or the general 
public can deal with the multiple issues of the skilled health 
care workforce shortage by itself. Rather, through collective 
action and regional leadership, solutions can be carefully 
developed and implemented to best serve both public and private 
interests.
    I'm pleased to turn to my colleague, Geraldine Hofler, to 
highlight the NoVaHealthFORCE partnership.
    Ms. Hofler. Chairman Murray, Ranking Member Isakson, thank 
you for this opportunity to speak. I am special assistant to 
Northern Virginia Community College president Robert Templin 
and the director of the NoVaHealthFORCE Project.
    NoVaHealthFORCE is a consortium of health care providers, 
higher education leaders, businesses, economic development 
authorities, and the Northern Virginia Workforce Investment 
Board. It represents the first time the health care workforce 
shortage has been addressed by a broad spectrum of involved 
constituents.
    Founded in 2003, this well-established group is led by 
Robert Templin, president of Northern Virginia Community 
College, better known as NOVA. NOVA is the second largest 
community college in the United States, and, as one of 23 
colleges in the Virginia Community College System, it's the 
largest higher education institution in the Commonwealth.
    In 2004, NOVA opened its sixth campus, which is solely 
dedicated to nursing and allied health education. And it is the 
only specialized community college campus in the Commonwealth.
    NoVaHealthFORCE commissioned a study to examine the scope 
and impact of the regional nursing and allied health care 
worker shortage. The study, financed by five regional health 
care providers and the Northern Virginia Workforce Investment 
Board, identified critical shortages of health care workers in 
24 job categories. The study was accompanied by an agenda which 
detailed specific actions to be taken by the stakeholders and 
centered around the following three broad goals: increasing 
educational capacity, developing and sustaining a pipeline of 
persons interested in health care careers, and nurturing 
innovation.
    Through the efforts of our CEO Roundtable and the Northern 
Virginia Workforce Investment Board, HealthFORCE was successful 
in leveraging the health care providers' original investment to 
obtain a grant from the Virginia General Assembly for the 
expansion of nursing education and nursing faculty. Matching 
funds were provided by the region's health care providers, and 
we distributed these funds to five college and university 
programs. Since 2006, there has been a 33 percent increase in 
student nursing admissions in the northern Virginia region, and 
about 80 percent of the graduates remain in the region to work.
    HealthFORCE has also facilitated the development of new 
diagnostic imaging curricula in radiation oncology and ultra-
sonography. This effort was also supported by the region's 
health care providers. NoVaHealthFORCE's interest in health 
information management was the catalyst for NOVA to apply for 
and to receive approximately $10 million in grants from the 
Department of Health and Human Services, Kaiser Permanente of 
the Mid-Atlantic, and the Department of Education.
    In summary, the NoVaHealthFORCE model has positively 
impacted the community by increasing the region's educational 
capacity, increasing access to higher education, and promoting 
career ladders within the health care industry.
    Thank you.
    [The prepared statement of Mr. Hunn and Ms. Hofler 
follows:]
      Prepared Joint Statement of David Hunn and Geraldine Hofler
    Chairwoman Murray, Ranking Member Isakson and distinguished members 
of the Employment and Workplace Safety Subcommittee, thank you for the 
opportunity to speak today about an innovative partnership in northern 
Virginia that is addressing a regional health care workforce challenge. 
We are David Hunn, executive director of the Northern Virginia 
Workforce Investment Board and Gerry Hofler, special assistant to 
Northern Virginia Community College president, Dr. Robert G. Templin, 
Jr. for workforce and the project director of NoVaHealthFORCE.
    NoVaHealthFORCE, a consortium of health care providers, higher 
educational leaders, businesses, economic development authorities, and 
the Northern Virginia Workforce Investment Board, represents the first 
time the regional health care workforce shortage has been addressed by 
a broad spectrum of involved constituents in the Commonwealth of 
Virginia.
    The Northern Virginia Workforce Investment Board (NVWIB) was 
established in 2000, with a commitment to providing quality workforce 
development services on behalf of northern Virginia residents. In 2002, 
the SkillSource Group, Inc. (SkillSource) was created as the non-profit 
entity of the NVWIB with a mandate for fiscal oversight and resource 
development in support of the programs and services of the NVWIB. 
SkillSource's mission is to catalyze a world class, globally 
competitive business environment in northern Virginia with the goal to 
offer world-class preparation to every northern Virginia resident at 
its five (5) One-Stop Employment Centers, known as SkillSource Centers. 
The SkillSource Centers had a record number of adult client visits in 
fiscal year 2011, recording over 100,000 jobseeker visits. The 
SkillSource One-Stop Employment Centers serve over 1.9 million 
residents and thousands of businesses in Fairfax, Loudoun and Prince 
William counties and the cities of Fairfax, Falls Church, Manassas and 
Manassas Park. The Northern Virginia Workforce Area is 1 of 15 local 
workforce areas in the Commonwealth of Virginia, overseen by the 
Virginia Community College System (VCCS) as the State Workforce 
Investment Act Fiscal Agent.
    The northern Virginia region has grown rapidly during the past two 
decades to become a major metropolitan job center, with 1.5 million 
total jobs widely distributed in multiple employment sectors such as 
information technology, professional services, education/health care, 
leisure/hospitality, retail, construction, and financial services, and 
government (Federal, State, and local). Unemployment in the Northern 
Virginia Workforce Area remains relatively low--4.5 percent versus a 
Virginia unemployment rate of 6.2 percent and a national rate of 8.5 
percent (seasonally adjusted for December 2011). New job growth in 
northern Virginia is projected to lead all local jurisdictions in the 
greater Washington region through 2020 and local employers in various 
industries have reported difficulties in identifying and hiring skilled 
workers for their available positions.
    Founded in 2003, NoVaHealthFORCE commissioned 
PricewaterhouseCoopers LLP to empirically measure the scope and examine 
the impact of the regional nursing and allied health care worker 
shortage in northern Virginia. The study, financed by five regional 
healthcare institutions and the Northern Virginia Workforce Investment 
Board, identified critical shortages of health care workers in 24 job 
categories. The original study was updated in 2008 and projected that 
northern Virginia's estimated current 3,000 health care worker shortage 
is projected to explode to more than 17,000 by 2020, without 
intervention.
    To date, the NoVaHealthFORCE outcomes have included:

    <bullet> A 33 percent increase in educational capacity in the 
region's undergraduate nursing programs from 2006-10;
    <bullet> A 25 percent increase in the number of nursing 
undergraduates from 2006-10, with about 80 percent remaining in the 
greater Washington region to work;
    <bullet> A catalyst for development of new curricula in Radiation 
Oncology and Ultra-Sonography by way of a U.S. Department of Labor 
grant in 2007;
    <bullet> A catalyst for approximately $10 million in grants from 
the U.S. Department of Health and Human Services, Kaiser Permanente of 
the Mid-Atlantic, and the U.S. Department of Education to increase 
capacity in Health Information Management curricula in 2010.

    In 2005 NoVaHealthFORCE convened an inaugural meeting of the 
region's health care CEO's and college and university presidents. 
Collectively, they pledged to cooperatively establish a long-term 
strategy to address the shortage. Now known as the CEO Roundtable, this 
group meets twice each year to identify and discuss issues and develop 
strategy. The group consists of the following health care providers: 
Inova Health System, Dewitt Army Health Care Network, Virginia Hospital 
Center, Prince William Health System, Sentara Potomac Hospital, Kaiser 
Permanente of the Mid-Atlantic, and Reston Hospital Center. The 
region's colleges and universities are George Mason University, 
Marymount University, Northern Virginia Community College, Old Dominion 
University, and Shenandoah University. The Northern Virginia Workforce 
Investment Board serves as the fiscal agent for NoVaHealth
FORCE.
    NoVaHealthFORCE advocates that the solution to the local healthcare 
worker shortage must be the establishment of a long-term, business-
driven, sustainable strategy. The northern Virginia community must 
recognize that the healthcare worker shortage is more than a hospital 
problem and it affects all aspects of economic and community life.
    This well-established group is led by Dr. Robert G. Templin, Jr., 
president of Northern Virginia Community College (NOVA). NOVA is the 
second largest community college in the United States, and, as one of 
the 23 colleges in the Virginia Community College System, it is the 
largest higher education institution in the Commonwealth of Virginia. 
NOVA opened its sixth campus, the Medical Education Campus, in 2004. It 
is solely dedicated to nursing and allied health education and is the 
only specialized community college campus in the Commonwealth.
    The release of the PricewaterhouseCoopers study was accompanied by 
an agenda which detailed specific actions to be taken by the local 
public and private stakeholders. Eight work groups comprised of 
approximately 100 subject matter experts from education, local 
government, and the health care community conceived a 14-step action 
plan centered on the following three goals:

    1. Increasing capacity within the healthcare education and training 
system.
    2. Develop and sustain an ongoing supply of persons interested in 
health care careers.
    3. Nurture Innovation.

    In 2006, through the efforts of the original steering committee and 
the Northern Virginia Workforce Investment Board, NoVaHealthFORCE was 
successful in leveraging the health care providers' original investment 
to obtain a $1.5 million grant from the Virginia General Assembly for 
the expansion of nursing education and nursing faculty. Matching funds 
were provided by the region's health care providers. NoVaHealthFORCE 
has distributed these funds from the region's health care institutions 
to five college and university nursing programs since 2006.
    This additional funding allowed each of the region's colleges and 
universities to target their niche in nursing education without 
competitive overtones, resulting in a 33 percent increase in nursing 
student admissions in the northern Virginia region since 2006. This 
cooperative effort has spawned a variety of creative educational 
ladders among the institutions, including study options such as 
accelerated traditional curriculums, accelerated inter-school pathways 
to advanced nursing degrees, and on-line education which will increase 
the number of nursing graduates. For example, the creation of a 
program, Momentum 2+1 enables a nursing student to enter NOVA and work 
toward two Associate Degrees, one in General Studies and one in 
Nursing. Upon completion, this student is automatically accepted to 
George Mason University to complete the Bachelors in Nursing in 1 
additional year or a Master's in Nursing in 2 additional years.
    The nursing education expansion project has been funded by the 
Commonwealth of Virginia every year since 2006 and the region's health 
care providers have more than matched the General Assembly funding each 
year. To date, Virginia General Assembly funding totals $2,359,825 and 
the region's health care providers have contributed $2,454,350. New 
this year has been the establishment of two graduate fellowships at 
George Mason University for Ph.D. nursing students. Upon award of their 
degree, the fellows will become nursing faculty for one of the region's 
nursing education programs. These new faculty will help to relieve the 
teaching shortage in the nursing classroom, which is at least as 
critical as the shortage at the bedside.
    Through the efforts of the CEO Roundtable, NoVAHealthFORCE has also 
facilitated the development of new diagnostic imaging curricula in 
Radiation Oncology and Ultra-Sonography. NOVA received a $1.2 million 
grant from the U.S. Department of Labor in 2007 to expand the region's 
output of radiation technologists, radiation oncology therapists and 
sonographers. This effort was heavily supported by the region's 
healthcare providers. Each health care provider contributed toward a 
subsidy to better align faculty salaries with the market rate salaries. 
The healthcare providers also recruited incumbent workers for these 
curricula and provided tuition assistance. These new funds were 
instrumental in opening new educational and career ladders in 
accordance with HealthFORCE's pipeline goal, reflected in the training 
and career preparation of over 120 new skilled workers to date. These 
funds also developed a high school bridge program allowing students to 
begin their preparation for a career in Radiation Technology while 
still in high school.
    NoVaHealthFORCE's interest in Health Information Management (HIM) 
and Health Information Technology (HIT) was the catalyst for NOVA to 
apply for and receive approximately $10 million in grants from the 
Office of the National Coordinator for HIT of HHS, Kaiser Permanente of 
the Mid-Atlantic, and the Department of Education.
    In summary, the NoVaHealthFORCE initiative has positively impacted 
the northern Virginia community by increasing the region's nursing and 
allied health educational capacity allowing for the filling of health 
care worker vacancies that will maintain and improve patient care and 
outcomes in addition to yielding additional tax revenues at the local, 
State, and Federal levels. It has helped to increase access to higher 
education health care training and has promoted career ladders within 
the health care industry.
    The premise of NoVaHealthFORCE is that no one sector, either 
private health care providers, Federal, State or local governments, 
higher educational institutions or the general public can deal with the 
multiple issues of the skilled healthcare workforce shortage by itself. 
Rather, through collective action and regional public and private 
sector leadership, solutions can be carefully developed and implemented 
to best serve both public and private interests.
    More details on NoVAHealthForce can be found on 
www.novahealthforce.org and Northern Virginia Community College at 
www.nvcc.edu. Additional information on the Northern Virginia Workforce 
Investment Board can be reviewed at www.myskill
source.org.

    Senator Murray. Thank you very much.
    I'll go ahead and turn to Wisconsin, since you're next. Ms. 
Schramm and Dr. Barhorst.

 STATEMENT OF PATRICIA SCHRAMM, EXECUTIVE DIRECTOR, WORKFORCE 
 DEVELOPMENT BOARD OF SOUTH CENTRAL WISCONSIN, INC., MADISON, 
WI; ACCOMPANIED BY BETTSEY BARHORST, Ph.D., PRESIDENT, MADISON 
                      COLLEGE, MADISON, WI

    Ms. Schramm. Chairman Murray, Ranking Member Isakson, and 
Senator Franken, thank you so much for the opportunity to be 
with you. I'm Pat Schramm. I'm the executive director for the 
Workforce Development Board of south central Wisconsin.
    We are actually sitting in the second population center of 
Wisconsin--Madison. We go very urban to rural, so that's 
something to really remember when we're talking, is we have a 
very, dense urban area, but then we become rural very quickly.
    I'm joined by Bettsey Barhorst. Dr. Barhorst is president 
of Madison College, and it's the largest college in our region. 
It has 45,000 students--to give you a frame.
    Our region has been working really hard on workforce 
innovation for over 10 years. And when the GAO came to us, it 
was really a good moment for us to do a timeout and say, ``Is 
what we're doing really worth looking at nationally?'' And the 
answer is yes, and the reason is that we've been working at 
this since 1999. So a message that I need to give you is this 
is not something that you do overnight. You need to have 
leadership that works at this for a very long time.
    Our background is that we actually had a very strong 
collaboration from the very beginning that was industry first, 
the educational people, the workforce system and its 
contractors, and the economic development community. We really 
had to have all those players in place to make this work.
    Why we got into this in 1999 is that we were actually 
already starting as a State into a skill shortage. We have low-
birth rates and an aging population, and industry is having a 
very hard time getting a workforce. Does this sound--this was 
1999--same conversation we're having right now.
    In 1999-2000, to get to the foundation piece, the Joyce 
Foundation came to us and brought us experts from the Joyce 
Foundation who were able to really help us think about our work 
and how could we be more effective. The reason we asked the 
Joyce Foundation to help us is that we were primarily Workforce 
Investment Act funded. We weren't getting the results that we 
wanted. People were going into training, but only about 65 
percent of the people who were completing training were 
actually being successful and getting jobs. So we knew we had 
to do something very drastically different.
    What happened is with the help of the Joyce Foundation, 
experts from primarily the DC area, CLASP, and workforce 
strategies--helped us really reframe our entire system and 
think about what would actually work better. As a result of 
that, we started to make a commitment to what you're calling 
now career pathway work. We were some of the early pioneers in 
this.
    What career pathway work meant for us is not just modular, 
stackable credentials--which we have been really effective in 
developing--but we also re-engineered the entire workforce 
system to surround this. We redesigned the staffing on the 
ground of the workforce system so that we could actually have 
career advisors on the very front end. Then we would know that 
the investment we were making was actually guided into career 
pathways.
    One of the key things to our work is in the early days, we 
would actually say we were prototyping, because we just didn't 
have substantial resources to take things to scale. So one of 
the things that we did throughout our 10-year period is we've 
been very disciplined, and when we find extra money, we 
actually then build our capacity.
    What capacity has meant is we've done things like, under 
the WIRED grant, brought whole new instructional platforms for 
patient simulation centers, robotics training for 
manufacturing. To deal with our urban-rural makeup, we brought 
in interactive video conferencing systems to our one-stop 
systems so that we could do workshops in one locality that 
people 2 hours away could actually participate in from a more 
rural community. We had some very, very strategic things that 
we've done over 10 years.
    I'm going to actually have Dr. Barhorst talk about the 
substantial work that we actually did in the community college, 
because we've pushed the envelope, seriously, on the community 
college system.
    Ms. Barhorst. Thank you. This was so exciting for us 
because we knew that we had to act from the point of view of 
the user, of the dislocated worker, of the worker who is an 
incumbent worker but needs enhanced skills, or even of our 
traditional college students who had to start looking at jobs 
instead of simply getting some kind of degree.
    We had this opportunity to do this pilot, and the best way 
I can tell you about it is to give you an example of someone 
coming to us. We put this at another campus--easy to park, to 
get to the front door. As soon as one of our clients would come 
in the door, they would be met by two people, by someone from 
workforce development and by one of our advisors. They would 
stay with them until they were matriculated into this program.
    The program had to be short, because adults do not have 
lots of time. It had to be very creative in how it was given. 
So we worked with the clusters where we knew there were jobs, 
and sometimes we had to go to basic skills, and other times, it 
was simply icing on the cake that was already there, meaning 
that was the person.
    We found this to be very successful. I only wish that we 
could do this kind of thing with all students, because the 
individualization is what made the difference, and constantly 
being in contact with the stakeholders, the industries, to know 
what did they want and who did they need and what kind of 
training did they need.
    Ms. Schramm. Also, just before we close--and, Senator 
Franken asked this--how do we actually get there? Industry 
clusters, industry partnerships, were really key. What we do is 
we actually work in six industries. We have tables of business 
people who meet with us throughout the entire year, helping us 
understand their work.
    This was absolutely critical during the recession, because 
labor market information was great. We needed to know where 
they were going to make their future investments. So their 
commitment to us--industry--is that they will have candid 
conversations with us. The scale of this work over 10 years--we 
actually have touched more than 7,000 people. And in the job 
center system, just in the past 2 years during the recession, 
they saw a 40 percent increase in the number of people who went 
into jobs. So it's had a major impact.
    The State of Wisconsin, now, with the Wisconsin Technical 
College System and the Department of Workforce Development, are 
attempting to do this statewide with the help of the Joyce 
Foundation.
    Thank you.
    [The prepared statement of Ms. Schramm and Ms. Barhorst 
follows:]
   Prepared Joint Statement of Patricia Schramm and Bettsey Barhorst
    Chairman, Murray, Ranking Member Isakson, and distinguished members 
of the committee, thank you for the opportunity to speak today about 
regional workforce system innovations. My name is Pat Schramm, I am the 
executive director of the Workforce Development Board of south central 
Wisconsin; I am joined by Bettsey Barhorst, president of Madison 
College, the primary technical college in south central Wisconsin with 
a 45,000-student population.
    How to position our workforce with the skills needed by industry is 
a constant focus of our region's leaders. Wisconsin is a State that has 
already moved into a labor shortage environment due to aging 
populations and declining birth rates. We know as a community that if 
we do not concentrate on maintaining the skills of our current workers 
and preparing all of our available new workers, we will not stay 
economically viable as a region and a State. We began working over 10 
years ago on a ``Career Pathway'' model with the goal to aggressively 
grow a skilled workforce for our region.
                        background--why and how
    We began our work in 1999 as a collaborative of partners; Industry, 
Economic Development, Educators, the Workforce Development Board and 
contractors. These Partners were and continue to be committed to 
improve access, retention and completion of low-skill, unemployed and 
dislocated workers to skill training and family supporting wages. At 
the board level we had strong business leaders who understood that we 
needed to start doing something drastically different. We were working 
very hard but our training outcomes were not matching the financial 
investments that we were making. Workers were not successfully 
completing training and industry was having a very difficult time 
finding skilled workers. Does this sound familiar_this was 1999.
    With the help of the Joyce Foundation we began to work with experts 
who were pioneering ``Career Pathway'' work. The experts helped us 
analyze our systems and understand our potential to innovate and most 
importantly, helped us to learn how to talk about our work. In 2003, we 
were ready to present to our boards ``Career Pathways'' as the 
framework for how we would do business. At this time we presented a 
concept and set of principles to the Madison College Board and the 
Workforce Development Board. We asked both boards to agree to commit to 
working within a ``Career Pathway'' framework. Both boards agreed to 
make organizational commitments that included dedicating resources that 
each organization had in hand and to aggressively seek additional 
resources to grow the work.
    For us, a Career Pathway model was and is an organized modular 
training platform offered in a more accessible and manageable format. 
This training is supported by a One Stop Delivery System where 
personnel are organized to support a workers career pathway progress. 
The student/worker is also supported by other workforce engagement 
strategies that can be used as needed, to assure a transition into 
employment such as apprenticeships, on the job training and 
transitional jobs. The system is designed so that the customer can 
enter the system at any point based on skill need.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Our early work can best be described as proto-typing, small scale 
changes. The small scale experiments kept reaping results that we could 
clearly see would produce increased benefits to workers and industry. 
We just needed to grow the scale. In order to grow the scale of our 
work; we maintain a discipline resource development strategy. What this 
means is, when an opportunity presented itself, we would use the one 
time resources to build industry informed curriculums, integrate new 
technologies such as patient care simulators, portable robotics 
training platforms for manufacturing, interactive video conferencing 
systems within the One Stop System and other strategies that would help 
us increase the effectiveness of our efforts and have a lasting impact 
of 3 to 5 years. Build capacity.
    Examples of investment:


------------------------------------------------------------------------
                                                                  People
        Timeline                Development          Investment  trained
------------------------------------------------------------------------
2000...................  Department of Labor         $1,400,000      998
                          Industry Partnership
                          Grant.
2004...................  Workforce Development         $325,000      400
                          Board first investment
                          in Career Pathway.
2008...................  Community-Based Job         $2,400,000      550
                          Training Grant--Biotech.
2007-10................  WIRED--Regional--12         $5,000,000    2,740
                          Counties.
2007-10................  DWD Sector Grants--           $442,000      200
                          Biotechnology and Health
                          Care--12 Counties.
2009...................  DOE FIPSE--Center for         $700,000      600
                          Adult Learning.
------------------------------------------------------------------------

                         summary of the design
    Key to our work has been our engagement with industry. We organize 
our work into industry sectors.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Industry sectors are made up of groups of companies specific to 
each sector that make a commitment to us, to engage in ongoing 
conversations that are up close and personal. This industry engagement 
gives us insight into what the challenges are to maintain a skilled 
workforce. These employers inform our work. They participate in 
curriculum design; they serve as trainers for both One Stop System 
workshops and technical college training. Most importantly, they help 
us understand how their industries are changing so that we can be in 
front of the change.
    There are five other very critical design pieces that have 
supported our ``Career Pathway'' work.

    1. At the college level, we re-organized and re-designed training 
strategies to provide a comprehensive approach to education and 
training for individuals that would lead to job placement and career 
advancement.

    This approach recognizes there are career pathways that require 
specific credentials to advance within that industry. The Career 
Pathway approach acknowledges that people, whether they are displaced 
or incumbent workers, are severely limited in the amount of time they 
have to obtain a credential leading to employment or promotions.
    The college and the board recognized that to address the needs of 
individuals for skill development and advancement in jobs and pay, the 
college would need to develop a new means of combining education and 
training for different levels of employment in an industrial sector.
    The development of industry-driven curriculum requires analyzing 
the job structure in a given industry sector, such as health care or 
manufacturing, and identifying the competencies that are expected of 
workers at each level in that industry. The training programs are then 
structured to support an individual while they advance along the career 
path in that industry--obtaining new skills, promotions and increases 
in pay.
    To implement career pathways the college had to break with the 
approach that community colleges have used for years: a credential or a 
degree that requires 1 or 2 years of full-time study.
    The career pathway model requires that curriculum design be focused 
on providing the education and training an individual would need to 
meet the work requirements of a particular job in a career pathway. For 
the college this has become the primary consideration in designing 
credentials.
    The college has broken down a final credential, such as a degree, 
into intermediate credentials that can be obtained by an individual. 
The intermediate credential is developed in co-ordination with industry 
so that an employer knows when a prospective employee with that 
credential applies for a job that he or she is qualified.
    These intermediate credentials are stackable--that is each 
intermediate credential will build off one another until a student 
obtains a degree or diploma often after they have entered the 
workforce.
    This model better serves all of the college's customers. For 
dislocated workers, it provides them with short, practical training 
that will give them the skills to enter a career pathway and begin 
receiving a paycheck once again. Incumbent workers have the ability to 
efficiently obtain the necessary skills they need for a promotion. 
Traditional students that find they need to enter the workforce before 
they can complete their degree will have accumulated industry 
recognized credentials that will lead to initial employment.

    2. Re-designed the One Stop System.

    Instead of just using the career pathway approach exclusively for 
training programs, the Workforce Development Board worked to use the 
model for all services provided by the workforce system. All workforce 
system staff is organized to support a career pathway model.
    One Stop System customers are provided service on the very front 
end of their engagement by a career advisor (connected to the One Stop 
System) who helps the customers assesses their skills and map a career 
pathway strategy. The Case management system and the job placement and 
retention staff are organized by industry. This enables the staff to 
become experts in their assigned industry. It also helps the staff 
better organize resources to support each customers targeted career 
pathway. Within our prepared testimony we have provided you a graphic 
of what this staff alignment looks like at the ground level.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    3. Worked with the college to establish job center-based skill 
centers to support adult learners. These services are co-funded by the 
college and the board using Workforce Investment Act funds.
    4. Build curriculums so that basic skills were weaved into and 
reinforce entry-level technical skill training.
    5. Organize as much training as possible in cohort delivery--where 
you move a group of similarly skilled students/workers through the 
training at the same time, giving them an opportunity to build peer to 
peer support. This also enables us to effectively organize resources 
around cohorts.
                         partners to the effort
    This work is not for the weak of heart. It takes a corps of 
partners to make it happen starting first with dedicated industry 
partners. We have over 100 company leaders who work with us throughout 
the year to understand their industries. This understanding is 
augmented by a deep engagement with our economic development partners 
at the State, regional and local level, our education partners--we are 
gifted with an organized technical college system. We have working 
access to not only the local technical college leadership but also the 
Wisconsin Technical College System staff. For the workforce system we 
have contractors that are willing to innovate with us and a Workforce 
Development Board that seeks and supports innovation.
                                results
    Over the past 10 years--we have trained over 7,000 workers on the 
``Career Pathway'' platform. This has included unemployed and low-skill 
adults and entry-level incumbent workers. Over the past 3 years we have 
seen an improvement in our credential attainment rates of 20 percent 
plus, improving from a rate of 65 percent successful completion of 
training to 89 percent successful completion. In 2010 the One Stop 
System staff increased by 40 percent the number of people who 
successfully entered and retained employment.
    Where we are now: The college has integrated the proven curriculums 
into the standing programs of the college. Our entire One Stop System 
is organized to support career pathway success. The ``Career Pathway'' 
service and training framework enables us to align our resources, build 
and deliver our services and training in a way that supports our 
region's economic vitality. The Workforce Development Board of south 
central dedicates 100 percent of its Workforce Investment Act resources 
to the Career Pathway Service and Training framework.
    The State of Wisconsin Department of Workforce Development and the 
Wisconsin Technical College system with the support of their own 
resources and help from the Joyce Foundation and other national experts 
such as CLASP are moving to implement ``Career Pathway'' strategies 
statewide.
    Thank you for the opportunity to speak to you today.

    Senator Murray. Very good. Thank you very much.
    And with that, we'll turn to California.

  STATEMENT OF SANDY HARMSEN, DIRECTOR, SAN BERNARDINO COUNTY 
WORKFORCE INVESTMENT BOARD, SAN BERNARDINO, CA; ACCOMPANIED BY 
      JAMES WATSON, PRESIDENT AND CEO, CMTC, TORRANCE, CA

    Ms. Harmsen. Good morning, Chairman Murray, Ranking Senator 
Isakson, and Senator Franken. My name is Sandy Harmsen, and I'm 
the executive director of the Workforce Investment Board for 
San Bernardino, CA. Thank you for allowing me the privilege of 
testifying before you today.
    In 2008, we had business closures and layoffs that were 
impacting thousands of county residents. By 2009, in San 
Bernardino County, we had a 15 percent unemployment rate. Pam 
Houston of Houston and Harris laid off 50 percent of her 
employees and was faced with having to do further layoffs. Ryan 
Andrews of Products Techniques was faced with closing his doors 
and laying off employees when 80 percent of his clients 
required an international standard certification that he did 
not have.
    Bud Weisbart of A&R Tarpaulin was going to lay off 
employees due to decline in sales, quality issues, and 
marketing issues. Ed Boyd of Macro Air was finding it difficult 
to keep up with demand which was forcing him to consider 
layoffs.
    The San Bernardino County Workforce Investment Board knew 
that it had to do something to assist struggling businesses. 
The board decided to fund a Business Services Unit even during 
the recession as the established relationships with employers 
allowed for better communication with the workforce system and 
to meet the needs of business.
    The WIB offered workshops through this team to address 
areas in which businesses were struggling. It was through these 
workshops that we realized that more in-depth assistance for 
businesses was needed to prevent layoffs and business closures.
    A Request for Proposal was issued, and five companies that 
were identified as specialists in their industries were hired 
to provide layoff aversion services. CMTC was one of those 
companies. Because of the relationships that had been 
previously established with our business services team, the 
industry specialists were trusted by the businesses and they 
benefited greatly.
    Mr. Watson. Good morning. I, too, would like to thank the 
Chair and the committee for inviting us to tell our story.
    We are partnered with the San Bernardino Workforce 
Investment Board, and I wanted to comment on the strengths and 
some of the best practices that resulted from the manufacturing 
sector Layoff Aversion and Business Assistance Program. Working 
in the program in conjunction with San Bernardino for over 2 
years, our staff and myself kind of came up with five major 
strengths.
    First of all, this has been a proven model in southern 
California of how the private and public sector can work 
together effectively. We also found that we could leverage the 
Department of Commerce, of which the MEP program is a part of, 
and the Department of Labor to retain and save jobs and 
actually create a few jobs along the way. We definitely found 
that working together we could accomplish a whole lot more than 
working independently.
    The second strength of it is that the program was driven by 
a systematic process. We spent a lot of time assessing at-risk 
companies in San Bernardino, looking for a committed, 
vulnerable, but viable organization. And once we found them, we 
provided technical assistance directed at the key risk factors 
that that company had that was driving them to reduce their 
workforce.
    A third strength is the program has a system for 
documenting and verifying results. And that's important when 
we're in this arena, that we need to really have companies that 
are committed and who will work with us on committing to, 
retaining, and creating jobs, and then we can document the fact 
that it actually took place. And so with confidence, we can 
report that the program--the partnership that we have retained 
600 jobs and created 117 new jobs in the year in which we were 
doing our project work.
    The program, for another strength, is scalable and 
repeatable. We expanded this program to seven additional WIBs 
in southern California, leading to 1,800 retained and 349 new 
jobs. And, last, the program is a job saver, and it reduced 
government spending on unemployment and social services for 
displaced workers.
    Bottom line, while this aversion program--while we did get 
some creation from this program, it was really based on layoff 
aversion. And we were working under the premise that it was 
more efficient and less expensive to keep an employee on the 
job than having to hire and upgrade the skills of a new 
employee that you would hire later. So we are asking that the 
committee support an expansion of this program.
    Thank you very much.
    [The prepared statement of Ms. Harmsen and Mr. Watson 
follows:]
                  Prepared Statement of Sandy Harmsen
    Chair Patty Murray, Ranking Member Johnny Isakson, and 
distinguished members of the committee, thank you for the opportunity 
to speak today about ``Addressing Workforce Needs at the Regional 
Level: Innovative Public and Private Partnerships''. My name is Sandy 
Harmsen, and I am the executive director of the San Bernardino County 
Workforce Investment Board and director of the county's Workforce 
Development Department.
    The San Bernardino County Workforce Investment Board has a 
dedicated and comprehensive business support program that deploys 
Federal funds to assist local employers with job creation and 
retention.
    The WIB consists of a majority of business owners who helped 
establish the local Manufacturing Industry Council and the 
Transportation and Logistics Council and are active members of the 
Aviation Industry Council, the Healthcare Workforce Advisory Board, and 
the California Clean Energy Collaboration. Their connection to the 
local business community and its workforce needs, coupled with a 
dedicated business services unit, empowered the WIB to respond to the 
severe economic downturn.
    The business services unit developed relationships with San 
Bernardino employers in high-demand industries that promise job growth 
and opportunities for county residents. The business services unit 
members meet regularly with employers to identify specific workforce 
needs, discover job openings and negotiate subsidized and On-the-Job 
Training contracts. They also help employers avert layoffs through 
business efficiency training.
    To assist employers, the business services unit provides:

    Customized job fairs;
    On-site recruitment resources;
    Human resources hotline;
    Business workshops at no-cost to participants;
    Efficiency and process improvement;
    Rapid response and layoff aversion;
    Labor market research; and
    Tax credits, incentives and more.

    Business closures and lay-offs affected thousands of county 
residents in 2008. Sixty percent of small businesses, which make 93 
percent of all businesses in the county, were delinquent in their bills 
and could not access credit. San Bernardino County hit a historic 
unemployment rate high of nearly 15 percent and ranked third in the 
Nation in home foreclosures by 2009.
    Pam Houston, general manager of Houston and Harris, was forced to 
lay off 50 percent of her employees over an 8-month period and as 
business continued to plummet, she faced the possibility of closing the 
doors of her family owned 23 year-old business.
    Ed Boyd, CEO of MacroAir found it difficult to keep up with 
customer demand. They lacked the systems to manage growth and quality 
was suffering, leading to quality and customer satisfaction issues. 
Without the proper systems in place and the structure to support their 
growth, Ed's company which has been in his family for three 
generations, was failing to meet customer needs that could force them 
to lay off a significant number of employees.
    Ryan Andrews, chief administrative officer of Products Techniques, 
Inc., which makes coatings for the aerospace, aviation and defense 
industries, faced closing his doors when 80 percent of his clients 
required his company to become International Standard Organization 
(ISO) 9001 certified.
    The WIB and its business services unit responded to the crisis 
among county employers. The WIB maintained employment through lay off 
aversion dollars, incumbent worker and On-the-Job training that allowed 
employers to keep their workers and hire residents who had lost their 
jobs in other industries.
    The WIB partnered with the local industry councils, chambers of 
commerce, educational providers and community organizations to provide 
information and resources that would aid struggling businesses. Twenty-
nine partners offered free initial consultations to businesses in their 
respective areas of expertise. The business services unit developed and 
implemented Business Survival Workshops throughout the county. A total 
of five separate workshops were initially conducted to reach as many 
businesses as possible due to the large geographic area of San 
Bernardino county that consists of 20,000 square miles (the largest 
county in the contiguous United States) with more than 62,000 
businesses.
    The initial business survival workshops received an overwhelming 
response by the local business community. More than 400 businesses took 
advantage of a free assessment that identified their strengths and 
weaknesses in sales, business processes, customer service, and employee 
performance and productivity. The WIB continued to offer 70 additional 
weekly workshops that assisted more than 1,100 employers to keep their 
doors open and avoid staff reductions.
    The business services unit surveyed businesses that participated in 
these workshops and learned that employers needed intensive business 
process improvement services that would increase revenue and prevent 
layoffs.
    The WIB's business services unit issued a Request for Proposal 
(RFP) in December 2009 to help employers prevent layoffs and closures. 
Five companies were selected to provide layoff aversion services. Local 
businesses that were struggling to stay afloat were identified by the 
business services unit and received process improvement training.
                ``giving struggling companies a boost''
    The WIB partnered with a business process improvement specialist to 
help Pam Houston streamline her company's operations, keep her 
employees and open up hiring. After changing many of their daily 
processes, Pam was able to hold onto her staff and hire new staff with 
the WIB's On-the-Job Training funds that reimbursed her for a portion 
of her training costs.
    Ed Boyd, CEO of Macro Air, also participated in the WIB's process 
improvement program. He reported a 30 percent increase in sales which 
created more positions in his company. Their production line now has 
the capacity to do 50 percent more without moving to a larger space.
    The process improvement program helped Ryan and his staff at 
Products Techniques upgrade equipment and customer service 
capabilities. His customers were impressed with his efforts and 
continued to bring him jobs. They are now ISO 9001 certified.
   san bernardino county workforce investment board partnership with 
         california manufacturing technology consultants (cmtc)
    Manufacturing is one of the key industries to San Bernardino's 
economic recovery that offers good paying jobs and long-term careers to 
skilled craftspeople. The WIB partnered with CMTC to facilitate the 
Lay-off Aversion and Business Assistance Program.
    CMTC and the business services unit met jointly with 68 at-risk 
manufacturers that suffered from declining revenues. They made a 
commitment to retain or hire employees and worked with a dedicated 
specialist to reduce cost, improve quality and productivity, address 
financial and succession planning issues and develop new markets to 
increase sales.
    Implementation services provided to each company were customized 
based on the manufacturer's risk factors or barriers to growth. The 
services CMTC provided included:
    Process Improvement for streamlining the manufacturing process to 
reduce production cost and increase productivity. These services also 
led to increasing the capacity of the participating manufacturers to 
increase sales.
    Strategic and Financial Planning for evaluating the manufacturers' 
current state and establishing long-term business and strategic goals 
based on sound financial planning. Referrals to other agencies like the 
SBA for loans were also made to manufacturers who needed operating and 
investment capital.
    Quality Management System implementation that improved product 
quality, on-time delivery and met industry ISO 9001 and AS9100 
certification requirements. Many of the at-risk manufacturers lost 
customers because they lacked certifications or could not enter new 
markets.
    New product development and diversification of products to foster 
innovation and growth. Innovation is a key for small manufacturers to 
stay competitive and gain market share.
    Participating manufacturers were surveyed 6 months after 
implementation by an independent survey from NIST/MEP and reported:

    $8 million in increased sales;
    $18 million in retained sales;
    $2.6 million in cost savings;
    $2.1 million of investment in equipment, IT and workforce skills 
development;
    600 retained jobs; and
    117 created jobs.

    The result of the program speaks for itself and the standard 
processes developed under the program has made it a model for seven 
other southern California workforce investment boards and CMTC 
demonstrating this is a best practice that should be given further 
consideration. There is a need in the manufacturing sector to invest 
early in the company and the workforce to avoid lay-offs and remove 
barriers to growth. The fact that jobs were created under this lay-off 
aversion program demonstrates the positive outcome of this type of 
investment.
    The total results of the process improvement program resulted in 
saving 1,106 jobs and hiring 204 residents in new jobs.
    The WIB's business services unit is a necessary component to the 
workforce system. The decision to fund it during the recession made the 
difference to employers and people who needed their jobs to keep their 
homes and support their families. But even more so, the WIB gives 
opportunities to vulnerable populations who are willing and ready to 
work.
    When Malena Bell was laid off from her non-profit organization, she 
was in the situation that every parent fears--having come 1 month short 
of living on the street. ``When I lost my job, I was forced to go apply 
for public assistance,'' she said. ``I went from making $1,800 a month 
to $500 a month.''
    Malena wasted no time utilizing the work readiness program offered 
by staff at the county's Employment Resource Centers, and immediately 
went to work on her resume and interviewing skills. By attending 
jobseeker workshops offered through the WIB's Employment Resource 
Centers, she had her ear to the ground when Patton Sales Corporation 
would be hiring through the On-the-Job Training program.
    ``She hated being on government assistance and took it 
personally,'' said Jon Novack, president of Patton. ``She said, `Give 
me a chance and let me show you what I'm about'.''
    Malena has now been with Patton for 2 years and is moving up to 
sales training. She plans to stay with Patton until her retirement.
    The WIB's relationships with the local business community, 
educational providers and community organizations supported the 
business community and jobseekers like Malena through the darkest days 
of the recession. The San Bernardino County WIB learned valuable 
lessons and shared its innovative programs and strategies with other 
workforce investment boards.

    Senator Murray. Thank you. And with that, I will turn to 
Washington State.
    Ms. Harmsen. Oh, may I add in summary of this--I had named 
some of the businesses that had been identified as needing 
assistance. After working with these specialists, Pam Houston 
did not have to lay off any further employees and was actually 
able to hire additional employees. Ryan Andrews experienced an 
upturn in business after achieving his ISO certification and 
was able to keep his business doors open. Ed Boyd experienced a 
30 percent upturn in his business, and Bud Weisbart was able to 
retain 31 jobs and is looking forward to increasing his 
business.
    Overall, the total results of this business improvement 
program were fantastic. Businesses were assisted and layoffs 
were averted. The program resulted in saving 1,106 jobs 
overall, and 204 new jobs were created, and added $25 million 
back into San Bernardino County--was the estimated amount of 
assistance back in.
    Thank you very much.
    Senator Murray. Very good. Thank you very much.
    And with that, we will turn to Washington State.

   STATEMENT OF MARLENA SESSIONS, CEO, WORKFORCE DEVELOPMENT 
  COUNCIL OF SEATTLE-KING COUNTY, SEATTLE, WA; ACCOMPANIED BY 
    BARBARA TREHEARNE, Ph.D., RN, GROUP HEALTH COOPERATIVE, 
                          SEATTLE, WA

    Ms. Sessions. Yes. Thank you, Chair Murray, Ranking Member 
Isakson, and members of the subcommittee, Senator Franken. My 
name is Marlena Sessions, and I'm the chief executive officer 
of the Workforce Development Council of Seattle-King County.
    For more than a decade, our Workforce Investment Board has 
led a public-private partnership in health care, an industry 
that's dedicated to human health and recognizes the importance 
of human capital. In this productive regional partnership, we 
joined forces with hospitals, employers, colleges, and unions 
to put people back to work in careers with a solid future.
    We've expanded training capacity in nursing and other 
health care fields, adding 557 training slots that would not 
have been available otherwise. We've provided 4,600 workers 
with career guidance right at their workplaces, with 1,000 of 
those going on to training to advance their careers.
    We've connected 65 disadvantaged young people to health 
care careers through an intensive, award-winning initiative 
that lets them complete college-level nursing courses even 
before they graduate from high school. This work has also led 
us to a new regional health care job training project called 
Health Careers for All that will train up to 920 adults and 
youth using all of the innovative best practices we've learned 
over the past 10 years.
    My message today focuses on the health care industry. But I 
want you to know we also have high impact results, both locally 
and regionally, in other sectors such as manufacturing, 
maritime, green building, aerospace, and information 
technology. Our experience proves that when employers are 
engaged with partners in workforce and education, the solutions 
we find together are always more effective than what any of us 
can do separately.
    Local Workforce Investment Boards across the country play a 
critical role in bringing all of these partners together and, 
above all, letting the voice and experience of industry guide 
our influence, investment, and results. This ability to convene 
partners and listen to industry is just one of the important 
roles of local workforce boards. Local boards can take these 
partnerships further because we also conduct labor market 
research, search out new funding to invest in training, 
influence and develop training curricula, and educate our 
community about lesser-known careers.
    We also prepare jobseekers, not just with occupational 
skills, but with interview and resume skills to be successful 
in gaining employment. But we couldn't do it without our 
employer partners, including Group Health Cooperative. I'm so 
pleased to be here today with an esteemed health care leader in 
the Seattle-King County area, Dr. Barbara Trehearne.
    Ms. Trehearne. Thank you.
    Thank you, Chairman Murray, Ranking Member Isakson, and 
Senator Franken. As Marlena noted, I'm from Group Health 
Cooperative, which is a nonprofit, integrated health care 
system known for many innovations, one of which is a medical 
home model.
    We provide care to 630-some thousand residents in the State 
of Washington. We have approximately 10,000 employees in 
Washington, about 5,000 of whom are clinical workers. I'm proud 
to say that we've been a partner with our local Workforce 
Investment Board, the Workforce Development Council of Seattle-
King County, from the very beginning of its work in health care 
10 years ago, work that's had a definite impact on the industry 
and on our region's economy.
    In 2002, Group Health and several other hospitals were 
brought together by the WDC with local colleges, unions, and 
the public workforce system to work together to solve critical 
staffing shortages. We looked at the causes of the shortage, 
especially in nursing, and made recommendations about how to 
expand the pipeline of training and to help health care workers 
progress in their careers.
    One example--Group Health and five other hospitals 
participated in a new project called Health Care Career 
Pathways. Employment specialists from the public workforce 
system now come to our facilities, meet with our staff, and 
provide information and support about opportunities in health 
care. Some of these staff were from nonclinical areas, such as 
food service, housekeeping, dietary, who wanted to start a 
career in health care. Others were nurses and technicians.
    Lower wage, assistive level, frontline workers are the 
fastest growing group in health care. We've been able to 
support their development and must continue to be prepared to 
assure their success and opportunity for development. The 
career specialists that come to our facilities help these 
people chart a path and connect them to resources that can 
offer training and education to move up.
    This is great for Group Health, because it allows us to 
invest in our own employees, to support their ability to learn 
new skills to become higher level workers in our system, and, 
most importantly, to earn higher wages. They're more likely to 
stay with us to serve as role models for other employees and to 
remain productive.
    We've also positively impacted our vacancy rates for 
licensed practical nurses and medical assistants. That's why we 
and other participating hospitals are now covering half the 
cost of these workforce staff through an annual financial 
contribution.
    And this spring, we, Group Health, along with six other 
organizations, will partner with the WDC in a new training for 
lower skilled workers. While still working, they'll earn more 
advanced certificates and thus move into health care positions 
that they would not otherwise have access to.
    We're partnering in these efforts because they bring value 
to our organization and to the health care workforce and the 
economy as a whole. Because of the Workforce Development 
Council, we now have a voice in training investments, 
curriculum design, and employee selection that we didn't have 
before, and we're growing our own future health care workers.
    Thank you for calling attention to this important work. We 
believe it makes a difference in our community.
    [The prepared statement of Ms. Sessions and Ms. Trehearne 
follows:]
      Prepared Statement of Marlena Sessions and Barbara Trehearne
    Chairman Murray, Ranking Member Isakson, and Honorable subcommittee 
members, thank you for inviting us to participate in today's hearing. 
We are honored and grateful for this opportunity to talk with you about 
collaborations between employers and the public workforce development 
system.
    For more than a decade our Workforce Investment Board, the 
Workforce Development Council of Seattle-King County (WDC), has led a 
public-private partnership in health care--an industry that is 
dedicated to human health and also recognizes the importance of human 
capital.
    In this productive regional partnership, the WDC joined forces with 
hospitals, employers, colleges, and unions to put people back to work 
in careers with a solid future. From day one, our goal was to ensure 
that the investment we made in training matched the demand for labor, 
and wasn't wasted on skills no longer needed. Hospitals and other 
healthcare employers guided the effort with this ``reality check'' at 
every step of the way.
    As a result, the WDC has expanded training capacity in nursing and 
other health care fields, adding 557 training slots that wouldn't have 
been available otherwise. We've provided 3,800 workers with career 
guidance--right at their workplaces. We connected 1,000 of them with 
training that gives them the skills for higher-demand and higher-wage 
jobs in the growing healthcare field.
    And we've connected 65 disadvantaged young people to health care 
careers through an intensive, award-winning initiative called Health 
Careers for Youth that lets them complete college-level nursing courses 
before they graduate from high school.
    This work has also led to an $11 million, 5-year regional health-
care job training project funded by the U.S. Health and Human Services 
called Health Careers for All. This initiative will train up to 920 
adults and youth using the innovative best practices we've learned over 
the past 10 years--including career and education navigators, wrap-
around case management, integrated basic English and math skills, and 
new college curricula to address specific needs.
    While our message today focuses on the healthcare industry, the WDC 
also has had positive results in other growing sectors such as 
manufacturing, maritime, green building construction, aerospace and 
information technology.
    Our experience proves that when employers--in any industry--are 
engaged with partners in workforce and education, the solutions we find 
together are always more effective than what any of us can do alone. 
Local workforce investment boards play a critical role in bringing all 
these partners together, and above all, letting the voice and 
experience of industry guide our investments and results.
    The WDC is having a huge impact because we listen carefully to 
these partners, including employers like Group Health Cooperative.
    Group Health is a nonprofit health care system that serves more 
than 600,000 residents of Washington State. Group Health has 
approximately 9,500 employees in Seattle and King County alone, 5,000 
of whom are clinical workers--doctors, nurses, radiologists, 
technicians and others with specific health care careers.
    Group Health has been a partner with the WDC of Seattle-King County 
from the very beginning of our work in health care 10 years ago--work 
that has had a definite impact on the industry and our region's 
economy.
    Our partnership began in 2002, when Group Health and several other 
hospitals were brought together by the WDC with local colleges, unions, 
and the public workforce system to solve critical staffing shortages in 
health care, forming the Seattle-King County Health Care Sector Panel. 
Together, we examined the causes of the skill shortages--especially in 
nursing--and published our recommendations in a report called In 
Critical Condition: Seattle-King County's Hospital Staffing Crisis.
    One problem we identified was that even though hospitals 
desperately needed nurses and technicians, and people were very eager 
to get into these careers, community colleges and nursing schools could 
not offer enough classes to meet the demand, due to high costs and 
reduced State funding.
    Another challenge was the lack of support for career progression in 
the health care sector. Those who wish to upgrade their skills--
especially those at the lower skill levels--faced many barriers in 
their career path, including the high costs and limited availability of 
training.
    But the work didn't end with identifying the challenges. The WDC 
ensured that the panel's recommendations became reality--and that the 
industry stayed involved.
    To address the capacity issue, the WDC pursued Federal and State 
grants to invest more than $1 million to expand the capacity of 2- and 
4-year nursing and radiologic technology programs in King County. 
Community colleges were close partners in adding these dollars to State 
funding to make the best use of limited resources. The hospitals 
themselves contributed $300,000. Finally, beginning in 2009, the WDC 
targeted Recovery Act funding to open nine new cohorts in health care 
training. These courses leading to a certificate trained 186 students--
many of whom had been on waiting lists to get into training programs.
    A young man named Ron was one of these students. After 2 years of 
prerequisites, Ron was seeking to get into an LPN class. Because these 
classes are so expensive for colleges to offer, waiting lists are long 
and only the best students make it in. On top of that, Ron didn't know 
if he could afford school on his salary as a dialysis technician.
    The WDC's first training cohort purchase, a Licensed Practical 
Nurse (LPN) training which started in June 2009 at South Seattle 
Community College, was the answer. Before the new class was added, Ron 
was discouraged--wondering if he would ever be able to achieve his 
dream. Then he got the call that he was in. ``I said `sign me up!' '', 
he says.
    On June 22, 2010, Ron received his nurse's pin and later earned his 
LPN license. From ``just barely making it'' on $15 an hour, Ron is 
earning $22 an hour as an LPN and will soon start training to be an RN. 
``This is pretty much a dream come true,'' he says. ``It changed my 
life, and I mean that from my heart.''
    There are hundreds of students like Ron. As mentioned above, our 
work together added 557 new training slots in key health-care training 
programs that would not have been available to people in our local 
community who want and need to skill up for health care careers.
    To address the second challenge--career progression for health care 
employees--the WDC launched an initiative called Health Care Career 
Pathways. Employment specialists from the public workforce system 
regularly visited six health care facilities, including Group Health 
Cooperative, to meet with staff and provide information and support 
about career opportunities and job training in health care.
    Since 2003, more than 3,800 hospital employees have taken advantage 
of this career counseling. Some of these were staff in housekeeping or 
food service who wanted to start in health care careers; lower-wage 
frontline workers are the fastest growing group in health care. Others 
were nurses and technicians.
    The career specialists help them chart a path and connect them to 
resources that can offer training and education to move up. More than 
1,000 of these employees have enrolled in subsidized health care 
training as a result.
    Group Health values this program because it allows us to invest in 
our own employees and to support their ability to learn new skills, to 
become a higher level worker in our system, and to earn higher wages. 
They are more likely to stay with us, serve as role models for other 
employees, and remain productive.
    Career Pathways has also positively impacted Group Health's vacancy 
rate for both licensed practice nurses and medical assistants.
    That's why Group Health and the other participating hospitals are 
now covering half the cost of these public workforce system staff 
through an annual financial contribution, which totals more than 
$330,000 so far.
    And this spring, Group Health and six other hospitals will partner 
with the WDC in a new training for lower skilled health care employees. 
While still working, these employees will earn more advanced 
certificates and thus move into health care positions they would not 
otherwise be able to access. Employers are partnering in these efforts 
because they bring great value not only to their own organizations, but 
also to the health care workforce and the economy as a whole.
    Because of the efforts of the local Workforce Investment Board, our 
region's health care employers now have a voice in training 
investments, curriculum design, and employee selection that they didn't 
have before. They can also feel confident that they are growing their 
own future health care workers to meet the need that is projected to 
continue increasing.
    This ability to convene partners and listen to industry is just one 
of the important roles of local workforce boards. Local boards can take 
these partnerships further because we also conduct labor-market 
research, search out new funding to invest in training, influence and 
develop training curricula, and educate our community about lesser-
known careers. Through the one-stop system that we oversee, we also 
interface directly with jobseekers to prepare them with not just 
occupational skills, but the interview and resume skills they need to 
be successful in gaining employment. As the only entity examining the 
full spectrum of workforce development in our area, the local workforce 
board is uniquely suited to ensure that public training dollars are 
invested for maximum results.
    We hope that our testimony today has shown the tremendous impact of 
partnerships between employers and local workforce boards in 
communities not only in Washington State, but across the United States. 
Once again, thank you for calling attention to this important work.

    Senator Murray. Well, thank you to all of you. It really 
seems to me that we've got some really good success stories 
throughout the country. And if we can build on that, we can 
really start to fill up skills gaps that so many employers are 
telling us really, truly exist out there and help get our 
economy going again.
    Let me start with a general question, and I'll just work my 
way down--and if each one of you could answer it. It seems that 
all of your programs required a significant amount of 
coordination--employers, workforce systems, secondary, post-
secondary schools, a lot of stakeholders. It's a lot of work.
    What was the catalyst for each of you to begin your 
initiative? I'll start down here.
    Mr. Hunn. Two quick points. In northern Virginia, it was 
the strategic focus Senator Franken related to, the industry 
emphasis on health care, I would say, as well as the local 
leadership of the business community, particularly at the 
workforce board level and the health care industry. And then 
third would be the entrepreneurial leadership--Dr. Templin from 
the community college and the alignment with the workforce 
board.
    You want to add to that, Gerry?
    Ms. Hofler. I think it does have to do with creative 
leadership and bringing the stakeholders to the table in such a 
way that they realize that this is not just a health care issue 
or it's for somebody else, but it's a community issue, and it 
affects the way we live and thrive in our communities.
    Senator Murray. And secondary to that, how did you decide 
who was going to coordinate the program with that many groups 
involved?
    Mr. Hunn. In our case, it's joint leadership between the 
community college and the workforce board. The workforce board 
is the fiscal agent for NoVaHealthFORCE. We're providing office 
space. At the same time, the staff is devoted from the 
community college and is on the community college payroll.
    Senator Murray. OK. Very good. All right.
    What was the catalyst for your initiative in Wisconsin?
    Ms. Schramm. The same concept. We actually physically live 
near each other, too. Somebody on the staff Googled us, and 
we're across the street. That helps a lot. But for us, it was 
the leadership, and it was leadership at both the Workforce 
Development Board and the college that really were interested 
in innovation, of trying something different. And we were very 
deliberate in that innovation, because what we did is once we 
understood what career pathway work would look like, we took 
principles and guidelines to both boards in the mid--about 
2004. And both boards made a commitment to both adopt those 
principles and also dedicate their financial resources.
    Senator Murray. How did you decide who was going to 
coordinate your program?
    Ms. Schramm. We actually coordinate totally together. So 
depending on who's positioned--and sometimes it's actually the 
economic development people. So we think of ourselves as 
actually kind of a circle.
    Senator Murray. OK. Very good.
    Ms. Barhorst. Ditto all that. But you just have to have the 
right people in the right place to address what's the need. And 
as soon as we saw a need, then we----
    Senator Murray. Being creative.
    Ms. Barhorst. Solving it.
    Senator Murray. OK.
    Ms. Schramm. Part of that is building trust, too. And the 
trust side, too, goes to industry, and I don't know if Senator 
Franken saw that when he convened. But we've gotten to the 
point where industry, by sector, is willing to play in what we 
call their pre-competitive space and actually have real 
conversations with each other as competitors and be willing to 
be candid with us. And that's a real breakthrough.
    Senator Murray. All right. How about you all? What was the 
catalyst for yours?
    Ms. Harmsen. The catalyst was absolutely the needs from 
business. We know in San Bernardino County that we have 63,000 
small businesses, and that is the--if you're going to grow jobs 
in the county, we need to keep businesses strong. We didn't 
want to lose any of our businesses. So coming together and 
really reaching out--we also have very strong relationships 
with community colleges and with education and reaching out as 
a team together to decide what to do. So everyone was really 
involved in this effort.
    Mr. Watson. We were reaching a large number of 
manufacturers, but the Workforce Investment Board was also 
reaching many manufacturers as well that we were not. And there 
were a lot of layoffs taking place, particularly in the San 
Bernardino area.
    So that was the catalyst that had us sit down to say how 
can we stop the carnage that was going on, with everybody being 
laid off. Their offices were filling up with displaced workers, 
and our idea was why don't we try and stop this before they 
become displaced and not fill up the front of the office but 
fix the back of the office.
    Then we sat down together and we actually defined tasks. 
They were very complementary. We didn't even realize how 
complementary they were until we sat down and started talking 
to each other. We developed a charter, and that charter was 
implemented, and the results came.
    Senator Murray. How did you decide who was going to 
coordinate?
    Mr. Watson. Well, we sat down and proposed a methodology to 
the Workforce Investment Boards. The boards then took it under 
advisement with their boards itself, and then they came back 
with their own modifications to--what they would like to see. 
They were intricately involved in the selection process. Any 
manufacturer that was selected for this program was approved by 
the Workforce Investment Board, and we agreed to that early on.
    We kind of defined ourselves as finding organizations that 
were at risk along with the Workforce Investment Board, 
bringing those people to the board for their approval, and then 
going out and providing the technical services, and then after 
the services were provided, putting together a program that 
documented all the results and outcomes so we could feed it 
back to the board again to try and drive a continuous program 
and not just a program that went on for 1 year.
    Senator Murray. OK. How about you? What was the catalyst 
for yours?
    Ms. Sessions. In Seattle, we really feel that the Workforce 
Investment Board's role is that of a neutral convener--one of 
their roles. Back in 2002, it was a health care nursing 
shortage crisis that was the catalyst. But since then, this 
platform of these partnerships with industry have allowed us to 
go back to industry again and again to continue to meet various 
needs as they've emerged.
    Ms. Trehearne. I think, very similar to what everybody else 
has said, our first foray into this work was to up-skill folks 
into licensed practical nurse positions. But one of the big 
catalysts for us was the ability to work with the community 
college system in a flexible way, in other words, changing the 
offering of courses and classes to weekends and evenings. And 
that allowed us to be able to free up our employees in a way 
that we would not otherwise have been able to.
    Senator Murray. OK. And how did you decide who was going to 
coordinate this at your level?
    Ms. Sessions. I think the Workforce Investment Board just 
took that upon ourselves to ask those industry leaders to come 
to the table. They did very willingly, and it's built from 
there.
    Senator Murray. OK. Very good.
    Senator Franken.
    Senator Franken. Thank you, Madam Chairman, again for 
convening this.
    You are all heroes to me. You really are. You could all be 
Minnesotans as far as I'm concerned.
    [Laughter.]
    Some of the great workforce boards do this in Minnesota. 
But I'm serious about this, because what you did--like in San 
Bernardino. Part of this now is we have these skill gaps, and 
you had skill gaps--even while we were shedding jobs, there 
were skill gaps.
    Now that we're beginning to grow a little bit, we're seeing 
more and more manufacturers, ET cetera, and depending on the 
sector--like in northern Virginia, we're talking about health 
care. And, you know, I was struck by--you were talking about 
electronic health records and the needs for people who can do 
that work, which is going to--we need to do in this country, 
because the faster we get those electronic health records 
geared up, the more we're going to be able to use that to save 
money in our health care system and, by the way, probably to 
find fraud and abuse in it, because once you get those records, 
that's one of the purposes of those, where we can see patterns 
in fraud and abuse.
    I just want to thank you all. I almost think that we should 
have a second panel of places that have failed, and we should 
say, ``What did you do wrong?'' You talked about trust, Ms. 
Schramm. ``Yes, well, we just didn't trust each other.'' Every 
story here is a story about what everybody should be doing and 
what America is really about.
    The partnership--what I love about this is that this is so 
not about partisanship. It's industry working together. It's 
unions working together. It's the government working together. 
It's the local government working together. It's education 
working together. We just need to do that, and we need to get 
over everything else and work like this in every part of our 
society. I just want to thank you for being here.
    As I look at you and--I just feel so good about America. 
And I think if we can scale this up and replicate it, and if 
you can help us do that, I think we'll be a lot better off. I 
mean, you guys kept people working while everyone was shedding 
jobs. Others of you are getting people jobs that are filling 
gaps that we need.
    Let me ask about one thing, because there was one thing 
brought up by a couple of you, which is certification and 
stackable credentials and credentials. Anybody can speak to 
this. What role does it play to have industry say, ``This is a 
credential that somebody needs,'' and go to one of the learning 
institutions and say, ``Can you put a course together just so 
that we can have this credential? It's a nationwide credential 
that's recognized.'' Anybody?
    Ms. Harmsen. I can speak from San Bernardino County. What 
we have done is brought--also, having identified industry 
sectors that were in demand prior to the recession that we 
fully expect would be those sectors where people would find 
jobs and the sectors that we needed to support, what they did 
was, the board brought in businesses from those different 
sectors to identify what those needs are--what type of upgrades 
did the employees need; what did they need to keep that 
business going--and then worked together with the community 
colleges and the educational institutions, sat down with those 
employers--it's a fantastic partnership--so that the employer 
is telling the colleges, the educators, ``This is what we 
need.'' And they did put together classes. They do put together 
classes specifically for those needs.
    Ms. Barhorst. I'd like to say----
    Mr. Watson. Also, I'm sorry, just one last comment. The 
news of manufacturing right now is changing. And our 
relationship with the Workforce Investment Board allows us to 
convert from cost reduction type, kind of, skills that the 
manufacturing community has had in the past to more skills 
around innovation and growth, exporting, and things that can 
create jobs in the manufacturing community.
    We're going to work closely with them to try and survey the 
manufacturing community and figure out what those new jobs are 
that they need, definitely to support global manufacturing for 
them and global growth. And then we'll coordinate it with them 
to try and get those curriculums offered, get it back into the 
community again, and then we have the right people going into 
the right manufacturers doing the right things.
    Ms. Barhorst. My answer goes back again to trust. The 
reason that there is accreditation and that there is a lot of 
bureaucracy, ET cetera, in higher education is so that that 
degree or that certificate counts, and that an employer knows 
that if you get someone that's been through that program, 
they're going to be good. They're going to have all those 
skills.
    But in a time when you need a fast turnaround, one can't 
always go through all of that. So one of the things that was 
good here is that this was a pilot program, and so then we 
could identify--what we did is identify certain certificates. 
So it had some credibility, but it wasn't the same as a degree. 
Now, some of these people actually pathwayed up to degrees, and 
they're on their way.
    Senator Franken. Sure.
    Ms. Barhorst. Because we had to move fast. So it's good to 
have the accreditation, but when you have to move--to be able 
to do this--it was a pilot, and so we could do things that we 
couldn't always do.
    Ms. Schramm. Senator, I want to jump in here. Since I'm not 
the technical college, I'll tell you it's really hard work. In 
my formal testimony, I said, ``This is not for the weak of 
heart, this kind of work,'' because technical colleges, 
community colleges, in our part of the country--they are very 
large organizations. And in order to do this work, they 
actually have to also get a faculty that's invested in this 
idea of stackable credential.
    So, internally, that's a real key to the success of this--
having leadership within the community college that's willing 
to really step back and say, ``This is what industry's telling 
us right now we need.'' And during the recession, especially in 
manufacturing, when that first level of jobs went away, this 
became a discovery process, because we had to literally 
reinvent the curriculums. So we actually entered almost an 
experimental place with the community college, and that's 
really hard for colleges to do.
    Senator Franken. I saw that in Hennepin County. That's 
exactly--but what I see, when it works----
    Ms. Schramm. It works.
    Senator Franken [continuing]. It works. It is very hard, 
but--Woody Allen had a saying about comedy writing, which is 
that it's either easy or it's impossible. And my sense is that 
if you have the right people working together and problem-
solving together, it actually is fun, and it's satisfying, and 
it can happen, and it builds an energy of its own. And then if 
that isn't happening, it's impossible.
    So you guys all did it. You all made it possible and did a 
great service to your communities, and I thank you.
    Ms. Hofler. I just wanted to make one comment. Even though 
we had done an empirical study to quantify the health care 
worker shortage, it wasn't until the health care providers at 
the CEO Roundtable actually identified the fact that they all 
had one common thing missing--radiation oncologists and ultra-
sonographers. And they're identifying that, and they're usually 
radiation technologists who are trained at a higher level. So 
they provided not only the tuition assistance for this, but 
also the incumbent workers that they wanted to train.
    Additionally, while we were developing the curriculums for 
this, they offered up the faculty subsidies for the faculty, 
because we, as a State institution, couldn't pay the faculty at 
market rates for those jobs. And so it wasn't until we actually 
had the CEO--the providers at the CEO Roundtable get together--
they identified the common need, which they had never done 
before.
    Senator Franken. Right.
    Senator Murray. All right. Well, thank you.
    Senator Franken. Thank you.
    Senator Murray. Thank you very much. I just want to throw 
out a general question to any of you who would answer--whether 
your experience in the initiative that you undertook at your 
level impacted the way your local workforce board does 
business?
    Ms. Sessions. I can jump in there, Senator Murray. 
Absolutely, and in terms of always listen to industry first. 
Let industry lead. Convene industry, and it's amazing how 
quickly things can happen once you determine those needs. It's 
a very simple concept. We just needed to turn it right around 
to industry.
    Ms. Schramm. This is how different our business is. One 
hundred percent of our Workforce Investment Act funds are 
organized on the career pathway platform. So the entire board 
just embraced this because they could see the results.
    Senator Murray. Yes.
    Mr. Hunn. In northern Virginia, it certainly opened up the 
use of different fundings and the need for different funds. We 
did not use WIA dollars for this NoVaHealthFORCE effort. We 
used seed money, of course, the private money and the State 
funds, and then other dollars that we were able to help get to 
get the process started. And I think that's really where we 
need to be in the years ahead, as----
    Senator Murray. So it's changed how you looked at where 
you're going to get funding to start with?
    Mr. Hunn. It really has to be, in terms of how we--it gives 
us flexibility as well.
    Senator Murray. Yes.
    Ms. Harmsen. And for San Bernardino County, absolutely. The 
focus on business and the needs of business and now the layoff 
aversion--seeing how important and how successful these 
programs were was great.
    Mr. Watson. I'd like to say that it's changed dramatically, 
because when we started working on this program 2 years ago, 
layoff aversion was a very small portion of the budget that was 
being spent on Workforce Investment Boards. And through good 
leadership and through some risk taking--because it was not 
exactly a popular thing to do because they did have offices 
full of displaced people--Sandy and some of the other WIBs in 
southern California changed the way in which they looked at the 
community and changed the way in which they were strategically 
looking at the workforce and decided to save jobs to a higher 
rate than they were before.
    They could still handle the displaced worker, but we were 
able to handle both. And I think that came from a change in 
their attitude, simply about how they were looking at the 
workforce and the community itself.
    Senator Murray. Interesting. Let me go back and ask Mr. 
Hunn and Ms. Hofler--in looking at your program, it seems like 
you have undertaken quite a systemic, broad group of people. 
You've got partnerships and contributions from education 
partners and the Commonwealth and industry partners and local 
workforce leadership. That's a large group of people with a lot 
of different interests.
    How do you sustain a focused partnership and resources 
across so many different interests and levels?
    Ms. Hofler. We're actually fairly well established. We have 
a CEO Roundtable. We started out with a steering committee, and 
then it morphed into what we call the CEO Roundtable that's 
comprised of the presidents of the colleges and universities in 
the region as well as the CEOs of the health care, acute care 
providers in the region as well.
    We get together and we meet twice a year to discuss these 
issues, and it does sustain it, and they make decisions about 
what we're going to continue to do and how we're going to 
continue to do it. And that's been a very important part of 
this.
    Senator Murray. Anything?
    Mr. Hunn. I would say the consistency--and this has been 
now going on 8 years, and the consistency has been consistent 
funding, consistent commitment. And, of course, the workforce 
board, as mentioned earlier, is the fiscal agent, and we've 
been able to sustain confidence of the private sector that this 
can be done efficiently and to everyone's best interest.
    Senator Murray. OK. I want to go to Ms. Schramm and Dr. 
Barhorst because what you talked about in terms of the 
inflexibility sometimes at higher education institutions--
you're dealing with a whole political institution in and of 
itself. I know that. I wanted you to talk a little bit about 
how we can get institutions, educational institutions, to think 
more this way. What were some of the things you dealt with?
    Ms. Barhorst. Definitely, as I've said before, the need is 
there, and all of a sudden, you realize that the traditional 
ways of doing things don't work, particularly with the 
population that you are serving. Second, the competition has 
been out there. The better part of what the nonprofits do is 
that they've realized what their customer needs. And by seeing 
that, I believe that that helps, too. They say, ``Wait a 
minute. They're doing classes in the middle of the night.''
    Senator Murray. Did you run into any problems in terms of 
student aid, in changing it?
    Ms. Barhorst. Yes. For example, these students would not be 
available for PELL Grants, but they had other aid through 
workforce development.
    Ms. Schramm. So what we've actually been prototyping is the 
stackable credential. This is the sustainability platform. 
We've now moved that inside of the main programs of the college 
so that now they are financially aidable, and that was moving 
us off of the prototype stage.
    Now what we've done with Madison College's faculty is gone 
into the full associate degrees and had industry tell us what 
the skill sets are, and then build those credentials so that 
people actually declare programs. This is still something that 
we could use your help with, with the Department of Education, 
to really say that career pathway work is financially aidable.
    Senator Murray. OK. Excellent. In California, you've 
focused a lot on this layoff aversion, which I found really 
important and interesting. How did you identify those 
businesses that you picked, that you named to us? Did they come 
to you, or did you look out there, or how did you find them?
    Ms. Harmsen. In San Bernardino County, we have had for many 
years a business services team. So we have individuals who go 
out into the community and knock on the doors of business. 
Again, understanding that we have 63,000 small businesses and 
with limited funds, we are able to reach approximately 7,000 
businesses per year, and that was how those businesses were 
identified.
    Especially during that recessionary time, when the 
recession first hit, seeing the needs and businesses just 
crying out--they were going to shut their doors, laying people 
off--is when the board decided to hold workshops. And what we 
did was advertised and put it out there that we were holding 
these workshops for business, and businesses came, and we had 
resources there for them from--financial assistance. CMTC 
participated in some of those workshops as well--and just had a 
number of resources there available so that businesses could 
connect.
    But even out of those workshops, we found that was not 
enough. And as the needs were identified even more, down to the 
specifics, that's when the board took the lead to say, ``OK. We 
need to hire these industry specialists to provide these direct 
services to businesses.''
    Senator Murray. OK.
    Mr. Watson. I think the most important part of this 
collaborative was the outreach, the ability for us to get 
together and identify those at-risk businesses in San 
Bernardino. They don't stand in the corner saying, ``I need 
help.'' They really do have to be found, and manufacturers, 
traditionally, are not joiners. So you really have to go out 
and find them.
    I think through the good services of her outreach group and 
our outreach group, we shared companies, we shared histories, 
and we shared where the companies were. And that led us to 
those committed companies that we felt that we could work with 
that were vulnerable but still had a viable business.
    Senator Murray. OK. Dr. Trehearne, I wanted to ask you--
clearly, this has helped you in your recruitment needs, and the 
health care workforce is one we know where there's a real need 
to get skilled workers. Have you been able to quantify any way 
the return on investment that you have actually made in this?
    Ms. Trehearne. We quantified it by looking at turnover, 
vacancy rates, and retention. When we look at turnover, and we 
use the industry benchmark that the cost of turnover is 
approximately one and a half times the salary of that 
particular wage worker, we can quantify then in terms of the 
number of workers that we bring into a particular role when 
we've done the up-skilling.
    And then the retention, the length of time--we look at some 
numbers like retention at a 12-month mark, because, usually, 
your return on investment is around 12 months, depending upon 
the positions--different for different positions. So we look at 
those two numbers, in particular.
    Vacancy, we can quantify to some degree, but it's easier to 
quantify the turnover and the length of time in the role from 
an ROI perspective.
    Senator Murray. Ms. Sessions, have you seen this across the 
health care industry--that kind of return on the investment?
    Ms. Sessions. Absolutely. I think what we found, 
interestingly, because it's a mature partnership, that 
different health care occupations have emerged over this time. 
So we're able to continue to go back and plug-and-play with new 
emerging health care careers and move people up to get that 
return.
    Ms. Trehearne. I think the other part of the formula--which 
these formulas are not worked out, so we're kind of having to 
figure them out as we go. And somebody referenced it earlier. 
It's this issue of fast-pacing things. So when you have your 
own cohort group in the community college system, you're able 
to fast-pace in terms of sequence, in terms of hours, of 
students in the program.
    An 8-hour day is very different from learning--than I go to 
one class 5 days a week for an hour. So there's some ROI there 
as well, because you can get people through----
    Senator Murray. Through the pipeline faster.
    Ms. Trehearne [continuing]. Through the pipeline faster 
without really shortchanging them on the quality of the 
education. I think that's important.
    Ms. Sessions. And just to add to that, the retention in 
those cohorts has been incredibly--completion rates has been 
incredibly higher than, say, traditional----
    Senator Murray. Because they get through it faster and they 
see the realization----
    Ms. Sessions. They get through it faster and--excuse me--
and, in fact, they have a support system amongst themselves and 
with these career navigators that we bring in to help.
    Senator Murray. Yes. Interesting. We've been joined by 
Senator Whitehouse.
    We'll turn to you.

                    Statement of Senator Whitehouse

    Senator Whitehouse. Thank you, Chairman.
    I just wanted to ask two questions kind of across the 
board, because you all touch on our workforce and job training 
network in a variety of different ways. And the two questions 
are: First, the GAO report suggested that there were 
significant disabilities with the Department of Labor being 
able to get its--sort of circulate best practices and get 
information around, that collaboration could be challenging. I 
think that was the word that they used.
    I'm wondering, on that point, how much you feel that at 
your level--or whether there's such a good, kind of, network of 
back and forth between different agencies that you feel--that 
best practices propagate pretty effectively, virally and 
through other means.
    The second is: I think we've had testimony that there have 
been 47 different workforce and job training programs in the 
Federal Government, and that suggests that that's an awful lot 
of touch points, and that suggests that that can be very 
complicated, bureaucratic, and administratively difficult for 
you. And I'm wondering if, in your actual experience, that is 
the way it bears out, or if they are brought together at the 
local level in ways that you, working with them, don't see as a 
significant disability.
    Those are the two questions. How well do you do best 
practices? And do we need to do more on that, or, actually, 
does it propagate pretty well just through the network? And 
these 47 different programs--is that a bureaucratic or 
administrative burden for you, or do you work through that 
pretty effectively, and does it sort itself out?
    Ms. Schramm. Do you want to go first, or do you want me to 
go first? I can--go ahead.
    Ms. Sessions. I'll jump in. Thank you, Senator. To your 
first question, yes, best practices are shared well at ground 
levels across various networks nationally, regionally, locally, 
statewide. And I would also give the Department of Labor credit 
for continually improving ways and methodology across the 
country to get those best practices out.
    We see some definite responsiveness there and improvement 
in using various methods of technology. An example would be 
just this last Monday, the Department of Labor did a web chat 
for 2 hours to give examples and illuminate things that are 
happening in the local world, and 2,800 of us across the 
country listened in and were able to ask real-time questions. 
So we're seeing some good things there.
    To your second question, we find that those 47 programs--
that number continues to be a little bit of a mystery to us. We 
see the list. We know the programs well, of course, at the 
local level. But we do coordinate so well that to a job-seeking 
customer, it's supposed to be seamless. To many of us in the 
field, it's very seamless as well, because there's a lot of 
transparency and working well together, again, leveraging 
resources across the board.
    Senator Whitehouse. Does anyone have a contrary view or an 
additional view?
    Ms. Schramm.
    Ms. Schramm. Just an additional view. We're in the Great 
Lakes area, and the Joyce Foundation, in addition and in 
partnership with the Department of Labor, has really played a 
strong role in seeding the collaborations and the best 
practices. They actually, twice a year, bring together all the 
workforce collaborators in our region to look at best 
practices, and they also bring experts to us. So that's a real 
key, that they will on their own dime bring people to help us 
do career pathway work or sector work, whatever we're needing 
to do.
    Senator Whitehouse. So you feel very supported in your 
desire to find out what the best practices are out there and to 
pursue them?
    Ms. Schramm. Yes.
    Senator Whitehouse. Yes. Mr. Hunn.
    Mr. Hunn. Senator, I believe a local workforce area or a 
community college must be motivated enough to want to be able 
to collaborate. So it really depends on how our State 
colleagues can really encourage--can be a catalyst to encourage 
the type of innovations that you've heard about this morning.
    To your second question, I really think it depends, at the 
local workforce area, how the State has organized itself as far 
as those 47 programs. Some of those are national programs that 
really might not be impacted locally. But a number of those are 
locally implemented, but there might be multiple partners.
    It really is a challenge in many cases to integrate efforts 
to make it seamless to the business community and seamless to 
the jobseeker to the best extent possible. In some cases, there 
might be State impediments that really would not allow a local 
board to take the action that it might want to.
    Senator Whitehouse. Well, thank you very much, Madam Chair, 
for this hearing. And I thank the witnesses for their testimony 
and their work in this important area.
    Senator Murray. I, too, want to thank all of our witnesses 
for sharing your experiences and all the work that you're 
doing. I think there's some really important lessons that we 
see from all of your collaborative testimony today. So I really 
want to thank all of you for taking time out to be here.
    I want you all to know that all the members of the 
subcommittee couldn't be here today. And for our members who 
want to submit a statement or questions, the hearing record 
will be open for 10 working days for statements and questions.
    And with that, this hearing is adjourned.
    [Whereupon, at 11:35 a.m., the hearing was adjourned.]

                                   

      

</pre></body></html>
